<html>
<title> - REVIEWING THE TRUMP ADMINISTRATION'S APPROACH TO THE MISSING AND MURDERED INDIGENOUS WOMEN (MMIW) CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
   REVIEWING THE TRUMP ADMINISTRATION'S APPROACH TO THE MISSING AND 
                MURDERED INDIGENOUS WOMEN (MMIW) CRISIS
________________________________________________________________

                           OVERSIGHT HEARING                  

                              before the

      SUBCOMMITTEE FOR INDIGENOUS PEOPLES OF THE UNITED STATES

                                of the

       
                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES                            

                    ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                              __________

                     Wednesday, September 11, 2019

                           Serial No. 116-22

       Printed for the use of the Committee on Natural Resources
       


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.govinfo.gov
       
                                  or
                                  
         Committee address: http://naturalresources.house.gov
         
         
                               ______

                U.S. GOVERNMENT PUBLISHING OFFICE 
 37-680 PDF              WASHINGTON : 2020      
 
 
 
         


                   COMMITTEE ON NATURAL RESOURCES

                    RAUL M. GRIJALVA, AZ, Chair

                  DEBRA A. HAALAND, NM, Vice Chair

                  GREGORIO KILILI CAMACHO SABLAN,
                              
                 CNMI, Vice Chair, Insular Affairs

                 ROB BISHOP, UT, Ranking Republican Member                            
                            

Grace F. Napolitano, CA                         Don Young, AK
Jim Costa, CA                                   Louie Gohmert, TX
Gregorio Kilili Camacho Sablan, CNMI            Doug Lamborn, CO
Jared Huffman, CA                               Robert J. Wittman, VA
Alan S. Lowenthal, CA                           Tom McClintock, CA
Ruben Gallego, AZ                               Paul A. Gosar, AZ
TJ Cox, CA                                      Paul Cook, CA
Joe Neguse, CO                                  Bruce Westerman, AR
Mike Levin, CA                                  Garret Graves, LA
Debra A. Haaland, NM                            Jody B. Hice, GA
Jefferson Van Drew, NJ                          Aumua Amata Coleman Radewagen, AS
Joe Cunningham, SC                              Daniel Webster, FL
Nydia M. Velazquez, NY                          Liz Cheney, WY
Diana DeGette, CO                               Mike Johnson, LA
Wm. Lacy Clay, MO                               Jenniffer Gonzalez-Colon, PR
Debbie Dingell, MI                              John R. Curtis, UT
Anthony G. Brown, MD                            Kevin Hern, OK
A. Donald McEachin, VA                          Russ Fulcher, ID
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                                                       

                            David Watkins, Chief of Staff

                              Sarah Lim, Chief Counsel

                         Parish Braden, Republican Staff Director

                             http://naturalresources.house.gov



                       SUBCOMMITTEE FOR INDIGENOUS PEOPLES OF THE UNITED STATES

                                   RUBEN GALLEGO, AZ, Chair

                           PAUL COOK, CA, Ranking Republican Member
                           

Darren Soto, FL                                    Don Young, AK
Michael F. Q. San Nicolas, GU                      Aumua Amata Coleman Radewagen, AS
Debra A. Haaland, NM                               John R. Curtis, UT
Ed Case, HI                                        Kevin Hern, OK
Matt Cartwright, PA
Vacancy
Vacancy
Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT,
ex officio   Vacancy
                                      
 

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 11, 2019....................     1

Statement of Members:

    Cook, Hon. Paul, a Representative in Congress from the State 
      of California..............................................     3
        Prepared statement of....................................     3
    Gallego, Hon. Ruben, a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:

    Addington, Charles, Deputy Bureau Director, Office of Justice 
      Services, Bureau of Indian Affairs, U.S. Department of the 
      Interior, Washington, DC...................................    14
        Prepared statement of....................................    15
        Questions submitted for the record.......................    17
    Anderson, Hon. John, U.S. Attorney for the District of New 
      Mexico, U.S. Department of Justice, Santa Fe, New Mexico...    18
        Prepared statement of....................................    20
        Questions submitted for the record.......................    23
    Hovland, Hon. Jeannie, Commissioner, Administration for 
      Native Americans (ANA), U.S. Department of Health and Human 
      Services, Washington, DC...................................     4
        Prepared statement of....................................     6
        Questions submitted for the record.......................    10




 OVERSIGHT HEARING ON REVIEWING THE TRUMP ADMINISTRATION'S APPROACH TO 
        THE MISSING AND MURDERED INDIGENOUS WOMEN (MMIW) CRISIS

                              ----------                              


                     Wednesday, September 11, 2019

                     U.S. House of Representatives

        Subcommittee for Indigenous Peoples of the United States

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:09 a.m., in 
room 1324, Longworth House Office Building, Hon. Ruben Gallego 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gallego, San Nicolas, Haaland, 
Case, Grijalva, and Cook.

    Mr. Gallego. The Subcommittee for Indigenous Peoples of the 
United States will now come to order. The Subcommittee is 
meeting today to hear testimony on the Trump administration's 
approach to the Missing and Murdered Indigenous Women (MMIW) 
crisis.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and Ranking Minority Member. 
This will allow us to hear from our witnesses sooner and help 
Members keep to their schedules. I ask unanimous consent that 
all other Members' opening statements be made part of the 
hearing record if they are submitted to the Clerk by 5 p.m. 
today or the close of the hearing, whichever comes first.
    Hearing no objection, so ordered.

   STATEMENT OF THE HON. RUBEN GALLEGO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Gallego. Good morning to you all. Today, we will be 
hearing directly from the Trump administration about the steps 
it is taking to confront the crisis of Missing and Murdered 
Indigenous Women (MMIW). Earlier this year, the Subcommittee 
held a hearing where we heard from Native women who have 
witnessed this crisis firsthand and who are working on the 
ground to address it.
    I want to thank the Ranking Member for agreeing to look 
further into this issue in a bipartisan manner. I think I speak 
for both of us when I say how important it is to keep this 
issue in the spotlight.
    Before we begin today's hearing, I want to remind everyone 
why we are here. During our March MMIW hearing, we heard their 
names: Ashley Loring HeavyRunner, Mackenzie Howard, Ashlynne 
Mike, and Savanna Greywind. They are Native women and girls who 
went missing or were killed and whose cases received shamefully 
negligent responses from Federal and state agencies.
    Unfortunately, these women were not alone and their cases 
are not unique. One study found that 1.5 million American 
Indian and Alaska Native women experience violence in their 
lifetime. On reservations, American Indian and Alaska Native 
women experience murder rates 10 times the national average. 
And, as we learned at our hearing earlier this year, these 
numbers are likely under-reported.
    We also know that state, local, and Federal coordination 
and response to cases of violence against Indigenous 
communities is severely inadequate. In fact, Federal 
enforcement has been so notoriously bad that some predators 
specifically target Native communities to avoid punishment. 
This pattern is sickening.
    These high rates of violence are not just a crisis 
affecting Indian Country. It is a national disgrace that 
demands national action and has not appeared to be a high 
priority for this Administration. We, in Congress, are 
committed to making change through VAWA, Savanna's Act, and 
other legislation. But we need to know we have a partner in the 
Administration in working to curb the violence.
    Listening sessions are not enough. We need to know what is 
being done to streamline protocols, eliminate lag time, improve 
databases, and combat apathy in our justice system when 
Indigenous people go missing. These are our brothers and 
sisters whom we have a responsibility to protect.
    I want to remind our witnesses here that the policies we 
discuss today have a direct impact on the lives of folks on the 
ground, for better or worse. I expect to hear about the 
tangible solutions this Administration is pursuing to end the 
cycle of violence for Indigenous women in this country. 
Anything less is unacceptable.

    [The prepared statement of Mr. Gallego follows:]
 Prepared Statement of the Hon. Ruben Gallego, Chair, Subcommittee for 
                Indigenous Peoples of the United States
    Good morning to you all.
    Today, we will be hearing directly from the Trump administration 
about steps it is taking to confront the crisis of Missing and Murdered 
Indigenous Women. Earlier this year, this Subcommittee held a hearing 
where we heard from Native women who have witnessed this crisis 
firsthand, and who are working on the ground to address it.
    I want to thank the Ranking Member for agreeing to look further 
into this issue in a bipartisan manner. I think I speak for us both 
when I say how important it is to keep this issue in the spotlight.
    Before we begin today's hearing, I want to remind everyone why we 
are here. During our March MMIW hearing, we heard their names: Ashley 
Loring HeavyRunner, Mackenzie Howard, Ashlynne Mike, and Savanna 
Greywind. They are Native women and girls who went missing or were 
killed, and whose cases received shamefully negligent responses from 
Federal and state agencies.
    Unfortunately, these women were not alone, and their cases are not 
unique. One study found that 1.5 million American Indian and Alaska 
Native women experience violence in their lifetime. On reservations, 
American Indian and Alaska Native women experience murder rates 10 
times the national average. And, as we learned at our hearing earlier 
this year, these numbers are likely under-reported.
    We also know that state, local, and Federal coordination and 
response to cases of violence against Indigenous communities is 
severely inadequate. In fact, Federal enforcement has been so 
notoriously bad that some predators specifically target Native 
communities to avoid punishment. This pattern is sickening.
    These high rates of violence are not just a crisis affecting Indian 
Country. It is a national disgrace that demands national action--action 
that has not appeared to be a high priority for this Administration. We 
in Congress are committed to making change--through VAWA, Savanna's Act 
and other legislation--but we need to know we have a partner in the 
Administration in working to curb the violence.
    Listening sessions are not enough. We need to know what is being 
done to streamline protocols, eliminate lag time, improve databases, 
and combat apathy in our justice system when Indigenous people go 
missing. These are our brothers and sisters, whom we have a 
responsibility to protect.
    I want to remind our witnesses here that the policies we discuss 
today have a direct impact on the lives of folks on the ground--for 
better or worse. I expect to hear about the tangible solutions this 
Administration is pursuing to end this cycle of violence for Indigenous 
women in this country. Anything less is unacceptable.

                                 ______
                                 

    Mr. Gallego. I would now like to recognize Ranking Member 
Cook for his opening statement.

 STATEMENT OF THE HON. PAUL COOK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Cook. Thank you, Mr. Chairman. Today's hearing is the 
second part of the discussion this Subcommittee began in March 
of this year. At that hearing, the Subcommittee received 
testimony detailing the painful situation that has plagued 
Native communities for far too long.
    Crime and violence, tragically, are not a new phenomenon in 
Indian Country. Four out of five Native women are affected by 
violence, with the U.S. Department of Justice finding that 
American Indian women face murder rates that are more than 10 
times the national average. That is scary. American Indians are 
victims of violent crimes at a higher rate than the general 
population, which has led to the Department of Justice 
emphasizing the importance of law enforcement in Indian 
Country.
    In April, the House of Representatives passed the Violence 
Against Women Act, which included many key provisions to 
protect Native American women, such as improving tribal access 
to Federal crime information databases, and reaffirming tribal 
criminal jurisdiction over non-Indian perpetrators of violence 
against women. I am looking forward to these provisions 
becoming law.
    It is so important that we all work together to address 
these horrific crimes and find a way to end this unprecedented 
violence against Native women.
    I am pleased we have some representatives from the 
Administration here today. I am looking forward to hearing what 
they are doing to combat the crisis of Missing and Murdered 
Indigenous Women.
    Thank you, Mr. Chairman.

    [The prepared statement of Mr. Cook follows:]
Prepared Statement of the Hon. Paul Cook, Ranking Member, Subcommittee 
              for Indigenous Peoples of the United States
    Thank you, Chairman Gallego.

    Today's hearing is the second part of the discussion this 
Subcommittee began in March of this year. At that hearing, the 
Subcommittee received testimony detailing a painful situation that has 
plagued Native communities for too long.
    Crime and violence, tragically, are not a new phenomenon in Indian 
Country. Four out of five Native women are affected by violence, with 
the U.S. Department of Justice finding that American Indian women face 
murder rates that are more than 10 times the national average. American 
Indians are victims of violent crimes at a higher rate than the general 
population, which has led to the Department of Justice emphasizing the 
importance of law enforcement in Indian Country.
    In April, the House of Representatives passed the Violence Against 
Women Act which included many key provisions to protect Native American 
women such as improving tribal access to Federal crime information 
databases and reaffirming tribal criminal jurisdiction over non-Indian 
perpetrators of violence against women. I'm looking forward to these 
provisions becoming law.
    It is important that we all work together to address these horrific 
crimes and find a way to end this unprecedented violence against Native 
women.
    I am pleased that we have some representatives from the 
Administration here today and I am looking forward to hearing what they 
are doing to combat the crisis of missing and murdered Indigenous 
women.

    Thank you, Mr. Chairman.

                                 ______
                                 

    Mr. Gallego. Thank you, Ranking Member Cook.
    Before we proceed to witness testimony, during our first 
hearing, our tribal advocates had a replica of the skirt that 
you see near our dais. It was made by a Native woman Agnes 
Woodward, originally from Canada, and married to Mandan, 
Hidatsa, and Arikara Nation. She makes these locally to bring 
awareness for the murdered and missing Indigenous women and 
girls. Her aunt is among the missing and murdered Indigenous 
women, and Native women wear the skirts to remember their 
sisters. Please, if you would like to just observe that we have 
that.
    I would also like to give an opportunity to the Chairman of 
the Committee of Natural Resources, Congressman Grijalva, for 
any opening statement.

    Mr. Grijalva. Thank you, Mr. Chairman. But I think your 
statement and the statement of the Ranking Member, and the 
bipartisan approach to accountability with regard to this 
issue, is enough said. So, thank you very much. I appreciate 
it.
    Mr. Gallego. Thank you, Mr. Chairman.
    Now, I would like to transition to our panel of expert 
witnesses for today. Let me remind the witnesses that under our 
Committee Rules, oral statements are limited to 5 minutes. But 
you may submit a longer statement for the record, if you 
choose.
    When you begin, the lights on the witness table will turn 
green. After 4 minutes, the yellow light will come on. Your 
time will have expired when the red light comes on, and I will 
ask you to please wrap up your statement. I will also allow the 
entire panel to testify before we question the witnesses.
    The Chair now recognizes the Honorable Jeannie Hovland, the 
Commissioner for the Administration for Native Americans at the 
U.S. Department of Health and Human Services. Thank you.

     STATEMENT OF THE HON. JEANNIE HOVLAND, COMMISSIONER, 
 ADMINISTRATION FOR NATIVE AMERICANS (ANA), U.S. DEPARTMENT OF 
           HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Ms. Hovland. Thank you. Chairman Gallego, Ranking Member 
Cook, and esteemed members of the House Subcommittee for 
Indigenous People of the United States, it is my honor to be 
before you today on behalf of the Department of Health and 
Human Services concerning the crisis of Missing and Murdered 
Indigenous Women and Girls.
    My name is Jeannie Hovland, and I serve as Commissioner for 
the Administration of Native Americans. I am also a proud 
member of the Flandreau Santee Sioux Tribe located in South 
Dakota.
    According to the Centers for Disease Control and 
Prevention, homicide is the third leading cause of death among 
American Indian and Alaska Native women between 10 and 24 years 
of age, and the fifth leading cause of death for American 
Indian and Alaska Native women between 25 and 34 years of age. 
And more than four in five American Indian and Alaska Native 
women, or about 84 percent, have experienced violence in their 
lifetime, as reported by the National Institute of Justice.
    We also know from research that children who witness 
domestic violence suffer long-term consequences, including 
changes to their mental and physical development, possibly 
resulting in worse health outcomes, leading to learning 
disorders and a continuation of a cycle of violence over 
generations. These statistics are staggering and expose the 
deep impact violence has in the lives of Native women, 
families, and their communities.

    In July, President Bordeaux of the Rosebud Sioux Tribe, 
located in South Dakota, issued a statement to his community 
that reads in part:

        ``We have had a number of tragic deaths in the past 10 
        days. They were almost exclusively children. I know 
        that we all grieve with the families and extend our 
        condolences and prayers for comfort for the families 
        impacted by these tragedies. No parent should have to 
        bury their children.

        It has become obvious that it is a dangerous time for 
        our people. It is especially true for our young people 
        and young adults, who face many safety threats that 
        were unheard of even 15 or 20 years ago. We now find 
        ourselves in a situation where we need to be more 
        vigilant about protecting the up and coming 
        generation.''

    Not surprisingly, what we heard from the Urban Indian 
Organizations is the resources and collaborations needed to 
address these issues include prevention programs, housing, 
data, and technical assistance and capacity-building to form 
strong partnerships locally to address the multiple service 
needs of their most vulnerable clients.
    We have also heard from tribal leaders, service providers, 
and others about the importance of engaging with tribal 
community members to lead efforts in developing and 
implementing solutions.
    I am happy to share that HHS is leading efforts on primary 
prevention, intervention, recovery, and healing. Our efforts 
include a whole-family approach that connects families to 
services that support the physical, mental, and spiritual 
health and well-being of individuals and families.
    Within ACF, programs such as the Tribal Maternal, Infant, 
and Early Childhood Home Visiting; Head Start; Runaway and 
Homeless Youth; Family Violence Prevention and Services; and 
Healthy Marriage and Responsible Fatherhood are incorporating 
new practices to respond to trauma and domestic violence, 
raising awareness of the issue, and working to heal victims and 
their families. HHS has also created and funded resources that 
Native communities can access to serve populations vulnerable 
to human trafficking and MMIW.
    I have sought ways to be a visible advocate on behalf of 
Native Americans, Alaska Natives, Native Hawaiians, and Pacific 
Indigenous communities through re-establishing and chairing the 
Intradepartmental Council on Native American Affairs to enhance 
collaboration across HHS, participating in work groups such as 
the White House Tribal Affairs Week Group, a Federal 
Interagency Working Group on Women and Trauma, and an 
Interagency Ad Hoc Working Group, and partnering with the 
Department of the Interior and Department of Justice.
    I recently joined Assistant Secretary Tara Sweeney and 
other Federal and tribal representatives at a listening session 
focused on cold cases, violent crimes, human trafficking, and 
MMIW.
    In closing, Tribal Nations and Native communities in urban 
areas are ready to act to address MMIW, and HHS is ready to 
partner with them. We are thankful for the attention you are 
bringing to missing and murdered Indigenous peoples and the 
support of the Subcommittee in helping address this crisis.
    I would be happy to answer any questions you may have. 
Thank you.

    [The prepared statement of Ms. Hovland follows:]
Prepared Statement of Jeannie Hovland, Commissioner, Administration for 
   Native Americans, Administration for Children and Families, U.S. 
                Department of Health and Human Services
                              introduction
    Chairman Gallego, Ranking Member Cook, and esteemed members of the 
House Subcommittee for Indigenous Peoples of the United States, it is 
my honor to testify before you on behalf of the Department of Health 
and Human Services (HHS) concerning the crisis of missing and murdered 
Indigenous women (MMIW) and girls. My name is Jeannie Hovland and I 
serve as the Commissioner of the Administration for Native Americans 
(ANA) within the Administration for Children and Families (ACF). I am a 
proud member of the Flandreau Santee Sioux Tribe located in South 
Dakota. Before my appointment, I served as Senior Advisor to the 
Assistant Secretary for Indian Affairs at the Department of the 
Interior (DOI) and, prior to joining the Administration, I worked for 
nearly 13 years on Native American issues for Senator John Thune of 
South Dakota.
    Our approach to addressing MMIW issues has been to engage with our 
stakeholders, partner with our sister agencies, and promote available 
resources while creating new opportunities to meet identified gaps. 
Since my confirmation, I have worked to improve collaboration within 
HHS and across the Federal interagency with respect to issues 
concerning Native communities. In particular, I re-established and 
chair the Intradepartmental Council on Native American Affairs (ICNAA). 
This council, initially established under the Native Americans Programs 
Act, was designed to enhance collaboration across the HHS operating 
divisions when addressing policy and budget issues that affect Native 
Americans. The ICNAA has met three times and two of our focus areas 
include human trafficking and MMIW. Opioids and substance use disorders 
have had a grave impact on our Nation, including Native communities, 
and represents another area of focus for the ICNAA.
                               background
    According to the Centers for Disease Control and Prevention (CDC), 
homicide is the third leading cause of death among American Indian and 
Alaska Native (AI/AN) women between 10 and 24 years of age, and the 
fifth leading cause of death for AI/AN women between 25 and 34 years of 
age.\1\ Data from U.S. crime reports indicate that nearly half of 
female homicide victims in the United States are killed by a current or 
former male intimate partner.\2\ According to the National Institute of 
Justice (NIJ), more than four in five AI/AN women, or about 84 percent, 
have experienced violence in their lifetime.\3\ These statistics are 
staggering and expose the deep impact violence has in the lives of 
Native women, families, and communities.
---------------------------------------------------------------------------
    \1\ Leading Causes of Death (LCOD) by Age Group, American Indian/
Alaska Native Females-United States, 2013 and 2014. Numbers for 2015 
vary slightly for these age bands but remain one of the leading causes 
of death for these ages. Accessed at: https://www.cdc.gov/women/lcod/
index.htm.
    \2\ Cooper, A., & Smith, E.L. (2011). Homicide trends in the United 
States, 1980-2008. Washington, DC: Bureau of Justice Statistics. NCJ 
236018. Petrosky, E., et al. (2017). Racial and Ethnic Differences in 
Homicides of Adult Women and the Role of Intimate Partner Violence--
United States, 2003-2014. MMWR. Morbidity and mortality weekly report, 
66(28), 741-746. doi:10.15585/mmwr.mm6628a1.
    \3\ National Institute of Justice. Five Things About Violence 
Against American Indian and Alaska Native Women and Men. https://
nij.ojp.gov/topics/articles/five-things-about-violence-against-
american-indian-and-alaska-native-women-and-men.
---------------------------------------------------------------------------
    I recently participated in the Department of Justice (DOJ), Office 
of Violence Against Women tribal consultation where a tribal leader 
stated that often the first responders to a domestic violence scene are 
the children in the home. We know from research that children who 
witness domestic violence suffer long-term consequences including 
changes to their mental and physical development, possibly resulting in 
worse health outcomes, learning disorders, and continuation of a cycle 
of violence over generations.\4\ Further, the long-term effects of 
adverse childhood events is that they create emotional scars that are 
reopened when people are exposed to traumas in adulthood leading to 
adult post-traumatic stress disorder.
---------------------------------------------------------------------------
    \4\ Child-Witnessed Domestic Violence and its Adverse Effects on 
Brain Development: A Call for Societal Self-Examination and Awareness, 
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC4193214/; Domestic 
Violence and the Child Welfare System, https://www.childwelfare.gov/
pubPDFs/domestic-violence.pdf.

    Recently, I attended HHS Regional Consultations across the Nation 
asking what HHS can do to address human trafficking and MMIW, and have 
continually heard that tribes do not want just more studies on this 
issue but also want action. In July, President Bordeaux of the Rosebud 
Sioux Tribe located in South Dakota issued a statement to his community 
---------------------------------------------------------------------------
that reads in part:

        ``We have had a number of tragic deaths in the past 10 days. 
        They were almost exclusively children. I know that we all 
        grieve with the families and extend our condolences and prayers 
        for comfort for the families impacted by these tragedies. No 
        parent should have to bury their children.

        It has become obvious that it is a dangerous time for our 
        people. It is especially true of our young people and our young 
        adults, who face many safety threats that were unheard of even 
        15 or 20 years ago. We now find ourselves in a situation where 
        we need to be more vigilant about protecting the up and coming 
        generation. There are simply too many threats to their safety. 
        Indian Country's struggles with alcohol, meth and opioids are 
        well documented.''

    Unfortunately what is happening in Rosebud is happening in many 
other tribal communities as well. This is why a multi-agency approach 
is vital to making any kind of impact on these issues all of which are 
tied together.
    On July 18, 2019, to ensure that Native Americans living in urban 
settings are included in strategies to address trafficking and MMIW, I 
co-hosted a virtual conference with urban Indian organizations and the 
National Council of Urban Indian Health to discuss MMIW. Twelve urban 
Indian organizations participated, as well as the DOJ, the Department 
of Housing and Urban Development, and my HHS colleagues from the Indian 
Health Service (IHS). Not surprisingly, what we heard from the urban 
Indian organizations is that the resources and collaborations needed to 
address these issues include prevention programs, housing, data, and 
technical assistance and capacity building to form strong partnerships 
locally to address the multiple service needs of their most vulnerable 
clients.
                           primary prevention
    I am happy to share that HHS is leading efforts on primary 
prevention, intervention, recovery, and healing. Our efforts include a 
whole family approach that connects families to services that support 
the physical, mental, and spiritual health and well-being of 
individuals and families. Within ACF, programs such as the Tribal 
Maternal, Infant and Early Childhood Home Visiting (MIECHV), Head 
Start, Runaway and Homeless Youth, Family Violence Prevention and 
Services, and Healthy Marriage and Responsible Fatherhood are 
incorporating new practices to respond to trauma and domestic violence, 
raising awareness of the issue, and working to heal victims and their 
families.
    For example, the Tribal MIECHV program supports the development of 
happy, healthy, and successful AI/AN children and families through a 
coordinated home visiting strategy that addresses critical maternal and 
child health, development, early learning, family support, and child 
abuse and neglect prevention needs. Tribal MIECHV conducted 72,326 home 
visits between 2012 and 2017 and in 2017, the program served 3,453 
parents and children. In Maricopa County, Arizona, Native Health, one 
of our Tribal MIECHV grantees, is working to enable urban AI/AN 
enrolled in the program to experience increased safety through 
prevention of child abuse and neglect and domestic violence. This 
comprehensive services program provides the full range of physical and 
mental health medical services to participants including misdemeanor 
domestic violence offender treatment services.
    The importance of mental health services in these communities that 
bear the weight of historic and contemporary trauma cannot be 
understated. Programs with a trauma-informed approach can help to 
establish competent, compassionate, and culturally appropriate 
responses. The Tribal Behavioral Health Agenda was created by the 
Substance Abuse and Mental Health Services Administration (SAMHSA) at 
the request of tribal leaders and examines the impact of trauma on 
current mental health outcomes. In partnership with Futures Without 
Violence, the Head Start program has developed trainings for grantees 
on trauma informed care, how to recognize and respond to disclosures 
about domestic violence, and how to partner with community domestic 
violence programs to address the issue.
    I have heard from tribal leaders, service providers, and others 
about the importance of engaging with tribal community members to lead 
efforts in developing and implementing solutions. As President Bordeaux 
stated, it is a dangerous time for our youth. Toward this end, I am 
working to connect the tribal youth directly with Federal leaders--to 
hear about their ideas and concerns and to empower them to become 
change agents in their communities. I strongly believe that youth need 
to be at the table when addressing these important issues. In July, I 
hosted the first-ever ICNAA Native Youth Town Hall in Albuquerque, New 
Mexico. At this town hall, leadership from SAMHSA, CDC, IHS, the ACF 
Office on Trafficking in Persons (OTIP), and I heard from over 100 
Native youth from across the United States, including Guam, Saipan, and 
American Samoa. We provided these youth a number of resources, 
including our Native Youth Toolkit on Human Trafficking. Shortly after 
the town hall, I received an e-mail from youth leaders asking if they 
could meet regularly with HHS leadership and work with us to address 
mental health and wellness issues including physical activity, 
nutrition, substance abuse, human trafficking, and MMIW. We held our 
first follow-up call a few weeks ago.
                   promoting and developing resources
    HHS has created and funded resources that Native communities can 
access to serve populations vulnerable to human trafficking and MMIW. 
These populations include foster children; runaway and homeless youth; 
victims of domestic violence and children who witness it; homeless 
adults; lesbian, gay, bisexual, and transgender individuals; 
individuals with mental disabilities; and those struggling with 
substance abuse or addiction.
    ACF's Family Violence Prevention and Services Act (FVPSA) formula 
grant is non-competitive and is mandated to allocate 10 percent of its 
appropriation to tribes and tribal organizations in an effort to 
increase public awareness and support services for victims of family, 
domestic, or dating violence. This funding is typically used to pay for 
domestic violence prevention advocates who can assist victims with 
creating a safety plan as well as crisis intervention, such as an 
emergency shelter. FVPSA also provides discretionary funds for several 
resources specific to tribes, such as the StrongHearts Native Helpline, 
the National Indigenous Women's Resource Center (NIWRC), and the Alaska 
Native Women's Resource Center (AKNWRC).
    The StrongHearts Native Helpline is a confidential and anonymous 
helpline for Native peoples affected by domestic and dating violence, 
as well as responds to calls from victims of human trafficking, as 
needed. StrongHearts is currently a collaborative project of The 
National Domestic Violence Hotline and NIWRC whose legal counsel, Mary 
Kathryn Nagle, testified before you on the MMIW issue this past March. 
In operation for just over 2 years, StrongHearts has experienced an 
increase in call volume since expanding its service hours, 
demonstrating that there is significant demand for culturally specific 
services.
    The NIWRC serves as the National Indian Resource Center Addressing 
Domestic Violence focused on providing national leadership to end 
gender-based violence through educational resources, training and 
technical assistance, and policy to enhance the capacity of tribes and 
tribal organizations. They have also developed materials to bring 
awareness and resources to Native communities on the issue of MMIW 
including a toolkit that can be accessed online.
    The AKNWRC serves Alaska's 229 federally recognized tribes, 
regional corporations, and tribal consortia as a statewide resource 
focused on strengthening local tribal responses to domestic and gender-
based violence. They are also meeting on MMIW in their communities to 
discuss and develop a plan for further outreach about this crisis in 
the Alaska Native communities.
    Recently on the matter of MMIW, the Family Violence Prevention and 
Services program collaborated with NIWRC, StrongHearts, and AKNWRC to 
raise the visibility of this issue and growing epidemic at its 2019 
Tribal Grantee Meeting, held August 13-15, 2019 in Seattle, Washington. 
Speakers from the NIJ, in partnership with the University of North 
Texas Health Science Center, presented on NamUs, the National Missing 
and Unidentified Persons System. NamUs is a centralized database and 
resource center that assists law enforcement, medical professionals, 
and public users in resolving cases of missing, unidentified, and 
unclaimed persons. Also, a member of the Puyallup Tribe of Indians 
Community Domestic Violence Advocacy Program presented on this issue 
from the perspective of a surviving family member. Risk factors, data, 
challenges, and policy changes related to MMIW, as well as what can be 
done as community members and individuals, were shared with meeting 
attendees.
    The National Runaway Safeline (NRS) is another HHS resource that 
has pledged increasing outreach to AI/AN communities. The NRS supports 
and serves youth in crisis, runaway youth, and youth experiencing 
homelessness and their families. The NRS provides services such as free 
bus tickets home, and a way to leave messages for family and loved 
ones, if the youth feel that they are not safe contacting them 
directly. They also offer prevention resources to help minimize running 
away incidents among vulnerable youth, including resources tailored for 
Native American youth.
                          frontline providers
    Health care providers are often the first line of defense in 
identifying cases of domestic violence, intimate partner violence, teen 
dating violence, and human trafficking. Ensuring these providers are 
adequately trained to identify and address these cases is an important 
step in intervention. Through training efforts such as the Stop, 
Observe, Ask, and Respond (SOAR) to Health and Wellness Program 
administered by OTIP, providers learn how to identify cases of human 
trafficking. They study clinical contexts using trauma informed and 
culturally appropriate approaches. Recognizing the importance of 
culture, ANA has partnered with OTIP to develop a SOAR curriculum for 
Native communities. This training examines historic factors that 
contribute to the trafficking of Native populations, identifies 
indicators, and describes what human trafficking looks like in Native 
communities. Moreover, it provides existing resources for Native 
populations and service providers working on this issue and describes 
methods for honoring cultural practices while providing supportive 
services to individuals who have experienced human trafficking. We also 
created an online Native Youth Toolkit on Human Trafficking that is 
designed to raise awareness and prevent this issue through education 
and includes tips on how to stay safe.
    In July, the CDC and IHS partnered on a National Conference on 
American Indian/Alaska Native Injury and Violence Prevention. The 
conference brought together tribal and Federal stakeholders to discuss 
the links between violence and injury and how to intervene in instances 
of intimate partner violence (IPV). The CDC offers a technical package 
of programs, policies, and practices to stop violence before it 
starts.\5\ IHS regularly provides screening on IPV during appointments.
---------------------------------------------------------------------------
    \5\ https://www.cdc.gov/violenceprevention/pdf/ipv-
technicalpackages.pdf.
---------------------------------------------------------------------------
    Other important programs that aim to be a means of primary 
prevention include ACF's Healthy Marriage and Responsible Fatherhood 
grant programs. These are part of HHS's community-based efforts to 
promote strong, healthy family formation and maintenance, responsible 
fatherhood and parenting. Grants such as these help strengthen healthy 
forms of relationship and parenting and can serve as a preventative 
measure against intimate partner violence.
                              ana approach
    ANA funding is unique in the flexibility it provides to tailor 
projects to the needs of the community it is serving. Because of this, 
ANA funding can be used to address MMIW in a myriad of ways. This could 
include funding of training programs or helping tribes create codes and 
collect data for their response to disappearances or violence when they 
occur. ANA funding also prioritizes the preservation of Native cultures 
and languages which have been shown to stand as a strong protective and 
preventative factor. The Minnesota Indian Women's Resource Center 
recently completed a project Oshki Wayeshkad (New Beginnings) that 
illustrates how communities use ANA funds. This project provided 
emotional, cultural, and life skills coaching to women age 16 to 21, 
and during the course of the project, staff helped a woman living with 
an abusing partner move, find employment, and attend dialysis and 
medical appointments.
    In addition to promoting our funding opportunities, I seek ways to 
be ``a visible advocate'' on behalf of Native Americans, Alaska 
Natives, Native Hawaiians, and Pacific Indigenous communities. In order 
to strengthen my advocacy, I have been active in workgroups that are 
breaking down silos to address issues of great concern to tribes and 
Native communities. These include a White House Tribal Affairs Work 
Group, which has highlighted MMIW as well as substance abuse and 
economic development as priorities, a Federal Interagency Working Group 
on Women and Trauma, and an Interagency Ad Hoc Working Group on AI/AN 
trafficking. I have also formed partnerships with the Department of the 
Interior and Department of Justice focused on improving public safety. 
I recently joined the DOI Assistant Secretary for Indian Affairs, Tara 
Sweeney, and other Federal and tribal representatives at a listening 
session focused on cold cases, violent crimes, human trafficking, and 
MMIW.
    We will be following up on our consultations and listening sessions 
with additional in-person roundtables with legislators and Federal 
partners focused on sharing data and formulating recommendations for 
victim protections. ANA has been developing a relationship with tribal 
epidemiology centers in cities across the country to have dialogue on 
MMIW data collection, the lack of which is problematic in identifying 
the scope of the problem.
    Furthermore, ANA recently partnered with OTIP to establish the 
first-ever class of the Human Trafficking Leadership Academy where 
Native survivors of human trafficking and frontline professionals will 
have the opportunity to participate in monthly leadership training over 
a 6-month period while examining cultural protective factors aimed at 
prevention of human trafficking of Native youth. This class is 
scheduled to begin in October and we look forward to their 
recommendations in the spring.
                               conclusion
    Tribal nations and Native communities in urban areas are ready to 
act to address MMIW and HHS is ready to partner with them. We are 
thankful for the attention you are bringing to MMIW and the support of 
this Subcommittee in helping address this crisis.
    I would be happy to answer any questions you may have.

                                 ______
                                 

      Questions Submitted for the Record to Commissioner Hovland, 
  Administration for Native Americans, U.S. Department of Health and 
                             Human Services
                   Question Submitted by Rep. Gallego
    Question 1. As apparent in your testimony, ANA offers a couple of 
readily-accessible resources to Native communities on the topic of 
MMIW, such as the online Native Youth Toolkit on Human Trafficking.

    1a. How does ANA conduct outreach to relevant communities and 
organizations so that they know about these resources?

    Answer. ANA developed the toolkit in partnership with our 
Administration for Children & Families (ACF) colleagues, including the 
Office of Trafficking in Persons (OTIP). This toolkit was informed by 
focus groups of tribal youth, Federal grantees, and Native Americans 
who have experienced sex and labor trafficking.

    ACF is working to distribute this toolkit and other resources in 
multiple ways. ANA and OTIP have printed and distributed hundreds of 
copies to Native youth, community members, and tribal leaders during 
workshops, consultations, listening sessions, and other events 
throughout the United States and Pacific Islands, such as our Native 
Youth Town Hall in Albuquerque, NM this past July. ACF has shared this 
toolkit online via our own social media platforms and those of our 
partners (where the toolkit has received thousands of ``likes'', 
shares, and clicks), blast e-mails, and on our website, where it has 
received more than 3,000 views.

    As another example, this past summer ANA and OTIP worked with the 
Center for Native American Youth (CNAY), through the National Human 
Trafficking Training & Technical Assistance Center, to train Native 
youth leaders on human trafficking. As a follow up, CNAY is 
collaborating with these leaders to support their efforts to raise 
awareness in their communities using the Native Youth Toolkit on 
trafficking and soliciting ideas and input on how culture may be a 
protective factor in preventing trafficking among Native youth. The 
youth will work with CNAY remotely to create individual multi-media 
products that share their findings, which will inform the next cohort 
of our Human Trafficking Leadership Academy (HTLA).


    1b. Is ANA in the process of creating additional publicly-available 
resources for Native victims or organizations?

    Answer. ANA is working with OTIP, the National Human Trafficking 
Training and Technical Assistance Center, and external partners to 
develop SOAR for Native Communities (Stop, Observe, Ask, Respond), 
under the SOAR to Health and Wellness Program.

    This training was borne out of OTIP's partnership with ANA. ANA 
felt there was a need for a training that spoke to not only American 
Indians and Alaska Natives, but also Native Hawaiians and Pacific 
Islanders on human trafficking from a public health framework and 
incorporated cultural considerations and trauma-informed care. ANA and 
OTIP worked with subject matter experts with both professional and 
lived experience from the National Indigenous Women's Resource Center 
(NIWRC), Indian Health Service, and Innovations Human Trafficking 
Collaborative to develop the training content. ANA and OTIP also had 
the training content externally reviewed by staff with the Tribal Law 
and Policy Institute, the American Indian Center of Chicago, National 
Council on Urban Indian Health, and members of the ACF Tribal Advisory 
Committee over the last year to ensure we were inclusive for urban 
Native communities.

    Our objectives for this training include:

    <bullet> Describe historic factors that contribute to the 
            trafficking (both labor and sex trafficking) of Indigenous 
            populations

    <bullet> Describe trafficking in Native communities

    <bullet> Identify indicators of trafficking in Native communities

    <bullet> Describe trafficking resources relevant to Native 
            populations

    <bullet> Describe methods for honoring cultural practices while 
            providing support to individuals who have experienced 
            trafficking

    <bullet> Explain ways to strengthen cross-jurisdictional 
            collaborations to build comprehensive responses to 
            trafficking in Native communities

    Once finalized, ACF plans to have it freely available through our 
SOAR Online Learning Management System as well as available for in-
person delivery upon request through our technical assistance provider. 
ACF will employ a variety of methods to promote this training as a 
resource.

                  Question Submitted by Rep. Grijalva
    Question 1. You highlight the Administration for Children and 
Families' (ACF) Family Violence Prevention and Services Act and the 
help that it has been in establishing vital victim services and 
awareness programs for tribal communities. Because 10 percent of the 
Act's appropriations go directly to tribes and to tribal organizations, 
such programs are reliant on the Act's annual funding.

    1a. Exactly how much money was available to tribes and tribal 
organizations this fiscal year?

    Answer. The Family Violence Prevention and Services Act (FVPSA) is 
statutorily mandated to support Native American Tribes (including 
Alaska Native Villages) and tribal organizations through an allocation 
of not less than 10 percent of the total appropriation (less amounts 
reserved under Section 312). The statutory purpose of these grants is 
to: (1) assist tribes in efforts to increase public awareness about, 
and primary and secondary prevention of family violence, domestic 
violence, and dating violence; and (2) assist tribes in efforts to 
provide immediate shelter and supportive services for victims of family 
violence, domestic violence, or dating violence, and their dependents. 
The allocation for tribes in Fiscal Year (FY) 2019 is $15,170,059.

    The FY 2019 Consolidated Appropriations Act included $5,000,000 in 
appropriations to the FVPSA Program, for the purposes of supporting 
Native American Tribes and tribal organizations. With this increase, 
the total amount allocated to tribes in FY 2019 is approximately 
$20,170,059.

    1b. What will the funding look like next year?

    Answer. The Family Violence Prevention and Services/Domestic 
Violence Shelter and Supportive Services/Grants to Native American 
Tribes (including Alaska Native Villages) and tribal organizations 
applications are due February 28, 2020. The 2020 President's Budget 
provided level funding for the program, and ACF looks forward to 
working with Congress throughout the appropriations process.

    1c. In your experience, has there been an expressed need for 
greater funding?

    Answer. For the last 2 fiscal years, Congress has provided an 
additional $5,000,000 in appropriations specifically for grants to 
tribes and tribal organizations. In FY 2018 and 2019, this increase 
enabled the FVPSA Program to increase tribal grant awards (83 of 142) 
from approximately $17,000 to approximately $46,000. The 2020 
President's Budget provided level funding for the program, and ACF 
looks forward to working with Congress throughout the appropriations 
process.

                  Questions Submitted by Rep. Haaland
    Question 1. You mentioned that HHS is leading the Federal efforts 
on primary prevention, intervention, recovery, and healing as they 
pertain to the MMIW crisis.

    1a. Are other Federal agencies helping HHS to fulfill this mission?

    Answer. Yes. Within HHS, the primary vehicle for coordinating 
Native American issues across the department is the HHS 
Intradepartmental Council on Native American Affairs (ICNAA), which has 
identified Human Trafficking/Missing and Murdered Indigenous Women and 
Girls as one of its top priorities. Currently, the ICNAA is identifying 
a series of immediate, medium, and long-term outcomes to work toward 
addressing. This work is part of the continuing collaboration with 
offices at the U.S. Department of Justice (DOJ) and the Department of 
the Interior to ensure that health and human services, as well as 
victim services, are thought about holistically with regards to MMIW.

    1b. If they aren't currently, how could other agencies collaborate 
with HHS to implement programming related to MMIW?

    Answer. HHS, led by ANA, is engaging in listening sessions, 
consultations, and other events across the Federal Government to help 
increase awareness, share resources, and learn from communities in 
order to develop responses to the issues around data and programming. 
HHS continues to reach out to other Federal agencies to include them in 
these critical conversations.

    Question 2. You highlight the recent establishment of the Human 
Trafficking Leadership Academy, where Native survivors of human 
trafficking and frontline professionals are given the opportunity to 
participate in monthly leadership training.

    2a. Can you detail how this leadership academy was created (i.e. 
who was involved/consulted, was it a Native-driven community effort, 
etc.)?

    Answer. This particular leadership academy included input and 
involvement from Native American perspectives. The project question for 
the HTLA Cohort 5, which examines culture as a protective factor for 
Native youth, was developed through input over time with the ACF Tribal 
Advisory Committee, a group of 26 tribal leaders (13 primary and 13 
alternates) from across the country and through other tribal listening 
sessions held at various conferences and with discussions with Native 
American associations like the National Indian Health Board, the 
California Rural Indian Health Board and at ACF tribal consultation. It 
was further refined in partnership with the Center for Native American 
Youth, a national organization focused on Native Youth empowerment as 
well as Native American human trafficking survivors. This cohort 
received more than 100 applications, the majority of them from 
individuals who identify as Native American, which speaks to the 
interest in these opportunities.

    The HTLA is committed to developing and expanding survivor-informed 
services while also providing leadership development opportunities to 
survivor leaders and related professionals. Fellows work 
collaboratively to provide substantive recommendations that will inform 
research, policies, and programs that improve awareness, understanding, 
and assistance to survivors of human trafficking or those at risk of 
human trafficking.

    The leadership training provided at monthly seminars over the 
course of 4 to 6 months is applicable to the fellows' current work and 
helps them grow in their chosen career. As they collaborate through a 
combination of in-person and virtual work, they also establish a 
trusted network among all the fellows that could last a lifetime. The 
final seminar includes a graduation ceremony and a presentation to 
Federal stakeholders on findings and recommendations related to the 
project question.

    2b. Do you think replicating such a process is necessary in 
creating lasting and effective victim services programs in Indian 
Country?

    Answer. ACF will have a better sense of the effectiveness of this 
process once we have completed the HTLA Cohort 5 in the spring of 2020. 
However, we do know that survivor-informed solutions are likely to 
resonate with the target audience and that programs and services in 
Indian Country must be tailored to the specific context and resources 
available in those specific communities.

    Question 3. Last month, staff members from the NIWRC, the Alaska 
Native Women's Resource Center (AKNWRC), and the StrongHearts Native 
Helpline gathered in Seattle at a Tribal Grantee Meeting to discuss the 
MMIW crisis.

    3a. Does your agency currently offer similar annual conferences or 
strategic planning meetings for tribal programs funded under the Family 
Violence Prevention and Services Act?

    Answer. The biennial FVPSA Tribal Grantee meeting was held August 
12 through 16, 2019 in Seattle. The 2\1/2\ day meeting provided 
training, technical assistance, and mentoring for FVPSA-funded tribes 
and tribal organizations. The in-person meeting allowed for in-depth 
technical assistance focused on administrative and programmatic grant 
implementation. Attendees shared and heard from each other on promising 
practices and barriers to providing services that are unique to their 
communities, experiences, and programs. Listening sessions, facilitated 
dialogue, and presentations were utilized as mechanisms for training. 
NIWRC, AKNWRC, and StrongHearts Native Helpline representatives were in 
attendance at this meeting and collaborated with the FVPSA Program to 
raise the visibility of MMIW issues and the growing crisis. Speakers 
from the DOJ National Institute of Justice, in partnership with the 
University of North Texas Health Science Center, presented on NamUs, 
the National Missing and Unidentified Persons System. NamUs is a 
centralized database and resource center that assists law enforcement, 
medical professionals, and public users in resolving cases of missing, 
unidentified, and unclaimed persons. Also, a member of the Puyallup 
Tribe of Indians Community Domestic Violence Advocacy Program presented 
on this issue from the perspective of a surviving family member. Risk 
factors, data, challenges, and policy changes related to MMIW, as well 
as strategies for community members and individuals, were shared with 
meeting attendees.

    In 2020, ACF will host a Native American Grantee meeting in 
February 2020 in Arlington, VA. ACF intends to host discussion on MMIW 
at the event and share resources. The FVPSA Program plans to hold a 
smaller peer-to-peer tribal grantee meeting tentatively scheduled for 
early March 2020.

    3b. Is HHS considering the proposal of an annual summit on the 
topic of MMIW amongst its many victim support services programs?

    Answer. HHS cannot predict whether funding availability in outlying 
years would permit it (or its components) to hold an annual summit. 
However, ACF is seeking to integrate the topic into its various 
meetings and conferences whenever possible. The FVPSA Program will 
continue to include discussions of MMIW as part of its grantee 
meetings, but it currently does not have the funding to implement a 
separate summit, with 97.5 percent of FVPSA funding required to be 
allocated for grant awards and 2.5 percent allocated for program 
administration.

                                 ______
                                 

    Mr. Gallego. Thank you, Commissioner.
    The Chair now recognizes Mr. Charles Addington, the Deputy 
Bureau Director for the Office of Justice Services at the U.S. 
Department of the Interior's Bureau of Indian Affairs.

STATEMENT OF CHARLES ADDINGTON, DEPUTY BUREAU DIRECTOR, OFFICE 
OF JUSTICE SERVICES, BUREAU OF INDIAN AFFAIRS, U.S. DEPARTMENT 
                OF THE INTERIOR, WASHINGTON, DC

    Mr. Addington. Good morning, Chairman Gallego, Ranking 
Member Cook, and members of the Subcommittee. My name is 
Charles Addington, and I am the Deputy Bureau Director for the 
Bureau of Indian Affairs Office of Justice Services at the 
Department of the Interior. Thank you for the opportunity to 
testify on behalf of the Department regarding the Missing and 
Murdered Indigenous Women crisis confronting American Indian 
and Alaska Native communities.
    The Department has made a priority to address this crisis 
head-on. My testimony will reflect the current work that the 
Department is doing.
    With Native Americans facing alarming levels of violence 
across the country, more can be done to support meaningful 
efforts to address these high crime rates in Indian Country. 
The Violence Against Women Act and the Tribal Law and Order Act 
have both helped bring attention to the high rate of violence 
and the gaps in crime trends in Indian Country.
    However, significant gaps in data that exacerbate the 
crisis of missing and murdered Native Americans remain. These 
data gaps impact how law enforcement officials handle or follow 
up on these cases. These challenges are present across multiple 
sectors, but are particularly problematic in the context of 
criminal justice, in which Federal, state, tribal, and local 
governments share responsibilities.
    It is important to continue efforts to build accurate data 
and provide Congress, the public, and most importantly, the 
tribes with the information needed to identify and analyze the 
criminal justice needs in Indian Country to better address the 
crisis.
    Since the FBI Uniformed Crime Report does not collect 
missing person data, the BIA Office of Justice Services has 
partnered with the DOJ's Missing and Unidentified Persons 
system, named NamUs, a program of the National Institute of 
Justice to create new data fields in their system to 
specifically capture tribal affiliation data. The new data 
fields were implemented and went live in February 2019. This 
additional data will assist law enforcement agencies across 
jurisdictions with tracking and investigating missing persons 
throughout Indian Country.
    The BIA Office of Justice Services has also begun efforts 
to raise awareness and provide additional training to Indian 
Country law enforcement personnel. The BIA Indian Police 
Academy collaborated with the National Criminal Justice 
Training Center to create joint training programs for cold case 
investigations, long-term missing investigations, and child 
abduction investigations for use throughout Indian Country.
    This joint effort has resulted in over 300 Indian Country 
law enforcement officers being trained to this date. The BIA 
Indian Police Academy has also implemented missing person 
courses in our basic and advanced training programs, resulting 
in an additional 158 law enforcement personnel trained this 
year.
    In addition to the focused efforts of the BIA Office of 
Justice Services, the Assistant Secretary of Indian Affairs 
office has been directly engaged in three listening sessions 
within Indian Country and Alaska since June. Participation has 
included senior DOI leadership, the Domestic Policy Council, 
the Office of Intergovernmental Affairs, the Department of 
Health and Human Services, the Administration for Native 
Americans, and the Department of Justice.
    In May, the inaugural roundtable was hosted by the Gila 
River community in Arizona. With the leadership of Governor 
Stephen Lewis, we were able to convene tribal leadership, the 
Administration, and other stakeholders to engage in a 
discussion on Reclaiming our Native Communities.
    In August, we took the Reclaiming our Native Communities to 
Bethel and Nome, Alaska to hear from Alaska Native communities. 
These face-to-face discussions between the Administration and 
tribal leaders from throughout the United States was intended 
to highlight the Department's commitment to promoting public 
safety in Indian Country and Alaska Native villages.
    The Administration remains committed to partnering with 
American Indian and Alaska Native tribal leadership communities 
and other appropriate stakeholders to better assure safety and 
economic prosperity in Indian Country. It is imperative that we 
continue to work in partnership and create safe communities and 
arrest the trend of issues plaguing our Native communities.
    I look forward to working with members of the Subcommittee 
and Congress to address this important issue. I will be happy 
to answer any questions you may have. Thank you.

    [The prepared statement of Mr. Addington follows:]
Prepared Statement of Charles Addington, Deputy Bureau Director--Office 
of Justice Services, Bureau of Indian Affairs, United States Department 
                            of the Interior
    Good morning Chairman Gallego, Ranking Member Cook, and members of 
the Subcommittee. My name is Charles Addington, and I am the Deputy 
Bureau Director--Office of Justice Services (OJS), Bureau of Indian 
Affairs (BIA), at the Department of the Interior (Department). Thank 
you for the opportunity to present a statement on behalf of the 
Department regarding the crisis confronting our American Indians and 
Alaska Natives (AIAN) communities, which is Missing and Murdered AIAN 
(Missing and Murdered Indigenous People or MMIP). The Department has 
made it a priority to address this crisis head-on. My testimony will 
reflect the current work of the Department.
    As you are aware, American Indians and Alaska Natives are two and a 
half times more likely to experience violent crimes and at least two 
times more likely to experience rape or sexual assault crimes in 
comparison to all other ethnicities, according to the Department of 
Justice (DOJ) Bureau of Justice Statistics. With AIAN facing 
disproportionately high levels of violence across the country, more can 
be done to support meaningful efforts to address these high rates in 
Indian Country.
    The Violence Against Women Act (VAWA) and the Tribal Law and Order 
Act (TLOA) have helped bring attention to the high rate of violence in 
Indian Country and the gaps in identifying crime trends in Indian 
Country. The Department is coordinating with other Federal partners to 
strengthen crime data reporting. However, significant gaps in data that 
exacerbate the MMIP crisis remain. These challenges are present across 
multiple sectors but are particularly problematic in the context of 
criminal justice, in which Federal, state, tribal, and local 
governments share responsibilities. It is important to continue efforts 
to build accurate data and provide Congress, the public, and, most 
importantly, tribes, with the information needed to identify and 
analyze the criminal justice needs in Indian Country to better address 
this crisis.
    These data gaps impact how law enforcement officials handle or 
follow up on cases. Under-reporting, racial misclassification, 
potential gender or racial bias, and a lack of law enforcement 
resources required to follow through and close out cases appropriately, 
are just some of the challenges faced when working on MMIP cases.
    In 2017, the Urban Indian Health Institute surveyed 71 cities 
across the United States to collect data on murdered and missing 
indigenous women and girls in urban settings. The Institute's survey 
and analysis of the collected data culminated in their 2018 report, 
Missing and Murdered Indigenous Women and Girls, which highlights some 
of the challenges of data collection with respect to AIAN populations 
in urban centers.
    For Indian Country, BIA OJS collects monthly crime statistics from 
Tribal and BIA law enforcement programs and submits the information to 
the Federal Bureau of Investigation (FBI) each quarter. The information 
collected is specific to the data required for the FBI Uniform Crime 
Report (UCR), which currently does not track missing persons or 
domestic violence statistics.
    As the UCR does not collect missing persons data, BIA OJS has 
partnered with DOJ's National Missing and Unidentified Persons System 
(NamUs), a program of the National Institute of Justice, to create new 
data fields in their system to specifically capture tribal affiliation 
data. The new fields were implemented and went live in late February 
2019. This additional data will assist law enforcement agencies across 
jurisdictions with tracking and investigating missing persons 
throughout the country.
    Going forward, better inter-agency coordination and cooperation is 
needed to improve the integrity of the data collected. While it is 
widely believed that there may be a correlation between opioid and 
other narcotics abuse, human trafficking, domestic violence, and MMIP, 
without sufficient data, it is difficult to draw solid conclusions. 
Federal agencies must develop concrete solutions to improve agency data 
collection to ensure these crimes are being tracked and investigated 
appropriately so that any trends can be properly identified and 
addressed. For example, adding the above listed types of incidents to 
the data collected by DOJ, BIA, and tribal and other cooperating law 
enforcement agencies is a positive step toward addressing the data 
collection problem.
    BIA OJS has also begun efforts to raise awareness and provide 
training to Indian Country law enforcement personnel. In January 2018, 
the BIA Indian Police Academy (IPA) began discussions with the National 
Criminal Justice Training Center (NCJTC) on collaborating to create 
joint training programs for cold case investigations, long-term missing 
investigations, and child abduction investigations for use throughout 
Indian Country. The BIA OJS also continues to assess the need for 
greater training opportunities in the northern tier states to better 
support Indian Country Officers and Agents.
    To specifically address the missing persons aspect of this issue, 
in 2018 the BIA-IPA launched human trafficking courses in the Indian 
Country Police Officer Training Program; the Basic Police Officer 
Bridge Training Program; and the Indian Country Criminal Investigator 
Training Program (a joint FBI, BIA, and Tribal attended program).
    In February 2018, the NCJTC and BIA-IPA identified dates and 
locations for three pilot training programs on Advanced Cold Case Long 
Term Missing Investigations in Montana and North Dakota. The three 
training programs were held at Blackfeet, Montana and New Town, North 
Dakota. A total of 117 personnel were trained in these programs. The 
BIA-IPA is also scheduled to participate in the assessment of an NCJTC 
project to create a web/mobile-capable investigative guide for tribal 
first responders on endangered, missing, and abducted persons.
    In addition to the focused efforts of BIA OJS, my office has been 
directly engaged in three listening sessions within Indian Country and 
Alaska since June. Participation has included DOI leadership, the 
Domestic Policy Council, the Office of Intergovernmental Affairs, the 
Department of Health and Human Services, the Administration for Native 
Americans, and DOJ.
    In May, an inaugural roundtable was hosted by the Gila River Indian 
Community in Sacaton, Arizona. With the leadership of Governor Stephen 
Lewis, we were able to convene tribal leadership, the Administration 
and other stakeholders to engage in a discussion on, ``Reclaiming Our 
Native Communities.'' In August, we took our ``Reclaiming Our Native 
Communities'' roundtable to Bethel and Nome, Alaska to hear from Alaska 
Native Communities. These face-to-face discussions between the Trump 
administration and tribal leaders from throughout the United States 
highlight the Department's commitment to promoting public safety in 
Indian Country and Alaska Native villages.
    These engagements were well received by all tribal leaders in 
attendance. Many tribal leaders agreed that a holistic, multi-faceted 
approach to building safe and secure communities is necessary to 
address the particular criminal issues that plague Indian Country and 
Alaska Native villages. Broadband and improved communications 
development were perceived by many tribal leaders as a necessary 
support structure to promote critical response to crime and emergency 
situations. Tribal leaders also advocated for infrastructure for 
housing, community water and sewer, improved law enforcement 
facilities, training, and capacity building for tribal courts and 
justice systems to promote self-determined safety protocols within 
tribal communities.
    The Trump administration remains committed to partnering with 
American Indian and Alaska Native tribal leadership, communities and 
other appropriate stakeholders to better ensure safety and economic 
prosperity in Indian Country. It is imperative that we continue to work 
in partnership and create safe communities and arrest the trend of 
issues plaguing our Native communities.
    I look forward to working with members of this Subcommittee and 
Congress to address this important issue. I will be happy to answer any 
questions you may have.

                                 ______
                                 

  Questions Submitted for the Record to Mr. Addington, Deputy Bureau 
     Director, Office of Justice Services, Bureau of Indian Affairs

Mr. Addington did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

                   Question Submitted by Rep. Gallego
    Question 1. In your testimony, you mention that gaps in data pose 
great obstacles to Murdered and Missing Indigenous Women (MMIW) 
investigations and that the alleviation of such gaps remains of 
importance to BIA.

    1a. What initiatives has your agency undertaken to alleviate the 
gaps in MMIW data?

    1b. Please provide any timelines that outline these initiatives to 
this Committee.

                  Question Submitted by Rep. Grijalva
    Question 1. Recently, it has been publicized that the Trump 
administration hosted a roundtable discussion on the theme of 
``Reclaiming Our Native Communities'' with tribal stakeholders. In 
BIA's testimony you acknowledge these discussions and notes that the 
roundtable occurred in Sacaton, Arizona last May. However, DOI's online 
press release states that the discussion occurred in Sacaton, Arizona 
on June 11. Representatives from BIA and ANA were both present at the 
``Reclaiming Our Native Communities'' discussion, however it remains 
unclear how many of these discussions occurred--as evidenced by these 
date discrepancies--and what was established at them.

    1a. Please provide a read-out, transcript, notes and list of 
participants from this roundtable to this Committee.

    1b. Will the information or notes collected from this listening 
session be made public?

                  Questions Submitted by Rep. Haaland
    Question 1. BIA's Office of Justice Services (OJS) reports 
different data to both FBI and the National Institute of Justice's 
(NIJ) crime databases--violent crimes resulting in death get sent over 
to the FBI, while missing persons data are sent to NIJ. This sounds 
awfully inefficient and difficult to navigate.

    1a. Has BIA considered proposing and/or supporting the 
establishment of a single database for MMIW cases?

    1b. Has BIA done any work toward this?

    1c. How can Congress help consolidate this information to get more 
accurate data?

    Question 2. You mentioned during your testimony that your agency is 
looking into working on and reopening cold cases regarding MMIW.

    2a. How many cold cases exist? If an exact answer isn't feasible, 
how many cold cases do you/your agency estimate to exist?

    2b. How many years back do these cases span to be considered a 
``cold case?''

    2c. What level of priority do these cases receive compared to more 
recent cases?

    2d. Are additional agency resources or other sources of funding 
available to help with these cold case investigations? If not, where 
can such resources come from to aid in these cold cases?

    Question 3. In October 2018, the Office of Justice Services offered 
information about its work on sexual and domestic violence in Indian 
Country under the ``Victim Assistance'' tab. This information is no 
longer available online and was replaced with DOJ, HHS, and State 
Department links. To note, the Administration for Native Americans 
(ANA) is a much smaller department than BIA and they've already 
released online resources regarding the MMIW crisis.

    3a. Why has this information been taken down/deleted from your 
agency's website within the last year?

    3b. Does BIA plan to provide online resources for the MMIW crisis?

    3c. Will BIA release the information generated from its listening 
sessions to the public?

    Question 4. As a general matter, emergency response training for 
tribal police department officers is needed to decrease officer 
response time to MMIW cases and to address the inflated levels of 
violence/domestic violence on reservations. Additional safety measures 
like the installation of surveillance cameras in areas of high crime/
gang activity and the expansion of patrol vehicle units also 
disincentivize the continuation of these crimes.

    4a. Is BIA working on preventative measures similarly to those 
described above to reduce crime on reservations?

    4b. What is BIA's funding priority related to these preventative 
measures?

    4c. What is BIA's funding priority and distribution for law 
enforcement? How are these amounts calculated? And, how do they compare 
to tribally-owned law enforcement?

                                 ______
                                 

    Mr. Gallego. Thank you, Mr. Addington.
    The Chair now recognizes the Honorable John Anderson, the 
U.S. Attorney for the District of New Mexico.

  STATEMENT OF THE HON. JOHN ANDERSON, U.S. ATTORNEY FOR THE 
 DISTRICT OF NEW MEXICO, U.S. DEPARTMENT OF JUSTICE, SANTA FE, 
                           NEW MEXICO

    Mr. Anderson. Chairman Gallego, Ranking Member Cook, and 
members of the Subcommittee, thank you for the opportunity to 
provide insight into the Department of Justice's work on 
responding to the issue of Missing and Murdered Indigenous 
Women. We appreciate your attention to this important issue, 
and your efforts to understand the work being done to address 
it at an interagency level.
    The heart of the Department of Justice's work in Indian 
Country, from law enforcement to prosecutions to policy 
development and program support, is aimed at addressing the 
unacceptably high rates of violent crime in Indian Country. 
Missing persons and murder cases are different issues that 
require different law enforcement responses.
    Federal law enforcement investigates all suspected murders 
in Indian Country, and U.S. Attorney's Offices around the 
country work tirelessly with our law enforcement partners to 
turn those investigations into prosecutable cases. In many 
ways, cases of missing individuals can be especially 
challenging to law enforcement in light of the myriad of 
reasons that someone may go missing.
    However, we recognize that the term ``Missing and 
Murdered'' goes beyond investigative procedures or legal 
definitions. ``Missing and murdered'' has become a call to 
action to address the crimes and public safety conditions that 
result in lost loved ones, including domestic violence, sexual 
assault, substance abuse, and inadequate law enforcement 
resources.
    As stated in President Trump's Proclamation on Missing and 
Murdered American Indian and Alaska Natives Awareness Day, we 
must work together to correct these injustices. The Department 
of Justice is expanding our efforts to respond to this call to 
action.
    We are working closely with our colleagues at the Federal 
Bureau of Investigation and the National Institute of Justice 
to better understand how data on reports of Missing and 
Murdered Indigenous Women are collected, how often these 
numbers are updated, and what protocols are required to resolve 
reported cases. We have begun a targeted effort to educate 
Federal prosecutors and law enforcement, with an ultimate goal 
of establishing improved and more standardized protocols for 
data collection, reporting, and case management.
    Ongoing coordination in Montana further illustrates the 
Department's commitment to a collaborative approach to 
addressing the missing and murdered issue. On June 12 of this 
year, the U.S. Attorney's Office, the Montana Department of 
Justice, the FBI, and the BIA co-sponsored a day-long missing 
persons training for both law enforcement and the public. Our 
goal was to inform law enforcement and the public about the 
problem of missing Indigenous persons and the various missing 
persons databases and alerts.
    In addition to honing our law enforcement response to 
reports of missing or murdered people, the Department is 
advancing our technology to better support law enforcement and 
families investigating these cases. Our technological advances 
include expanded efforts to assist tribes in integrating Amber 
Alert protocols.
    Our Office of Justice Programs, or OJP, provides funding 
and technical assistance opportunities to integrate tribal 
Amber Alert communication plans with state or regional plans. 
And that helps us better align our resources with the needs 
expressed by tribal representatives. Amber Alerts have become a 
critical tool in responding quickly to reports of missing 
persons.
    Another one of our key systems is the National Institute of 
Justice National Missing and Unidentified Persons system, or 
NamUs. NamUs was developed to help identify unidentified 
remains, locate missing persons, and bring resolution to 
victims' families.
    NamUs is a national centralized, web-based information 
clearinghouse and resource center for missing, unidentified, 
and unclaimed person cases. NamUs combines technology, forensic 
services, and investigative technical assistance to support and 
assist law enforcement officials, medical examiners and 
coroners, allied forensic professionals, and families from 
across the country.
    NIJ and NamUs staff have launched a targeted outreach and 
training campaign to tribal law enforcement, leadership, and 
community members to ensure Native communities are aware of the 
NamUs technology and technical assistance, which are available 
for free to all Tribal Nations.
    Finally, the Department recently announced our fifth 
expansion of the Tribal Access Program, or TAP, which provides 
federally recognized tribes with the ability to access and 
exchange data with the national crime information databases for 
both criminal justice and non-criminal justice purposes.
    This access to information empowers tribal law enforcement 
to respond to reports of crime and missing persons in their 
communities more swiftly and more effectively. Access through 
TAP also enables tribes to coordinate more effectively with 
other law enforcement agencies involved in responding to crimes 
in Native communities.
    The high statistics on crime in Indian Country motivate all 
of us who dedicate our professional lives to partnering with 
tribes to improve public safety in Native communities. We are 
all mindful of the deeply personal and often too heartbreaking 
stories faced by individuals, families, neighbors, and friends.
    Thank you again for the opportunity to discuss this serious 
issue and the Department's activities in support of Native 
communities. And I look forward to addressing any questions you 
may have.

    [The prepared statement of Mr. Anderson follows:]
    Prepared Statement of John C. Anderson, United States Attorney, 
           District of New Mexico, U.S. Department of Justice
    Chairman Gallego, Ranking Member Cook, and members of the 
Subcommittee--Thank you for the opportunity to provide insight into the 
Department of Justice's work in responding to the issue of missing and 
murdered Indigenous women. We appreciate your attention to this 
harrowing issue, and your efforts to understand the work at an 
interagency level.
    The heart of the Department of Justice's work in Indian Country, 
from law enforcement to prosecutions to policy development and program 
support, is aimed at addressing the unacceptably high rates of violent 
crime in Indian Country. We are working to better understand how crime 
rates and the challenging public safety conditions faced by too many 
Native communities are linked with the rates of missing or murdered 
Native people, especially Native women. From a legal perspective, 
missing persons and murder cases are different issues that require 
different law enforcement responses. Federal law enforcement has the 
responsibility to investigate all suspected murders in Indian Country. 
U.S. Attorneys' Offices around the country work with our law 
enforcement partners in an attempt to turn those investigations into 
prosecutable cases. In many ways, cases of missing individuals can be 
especially challenging for law enforcement in light of the myriad of 
reasons that someone may go missing. However, we recognize that the 
term ``missing and murdered'' goes beyond investigative procedures or 
legal definitions. ``Missing and murdered'' has become a call to action 
to address the crimes and public safety conditions that result in lost 
loved ones, including domestic violence, sexual assault, substance 
abuse, and inadequate law enforcement resources. As stated in President 
Trump's May 5, 2019 Proclamation on Missing and Murdered American 
Indian and Alaska Natives Awareness Day, we must work together to 
correct these injustices. The Department is expanding our efforts to 
respond to this call to action.
    In keeping with the White House's direction, the Departments of 
Justice, the Interior, and Health and Human Services (HHS) are 
collaborating on a cross-agency effort to address this multi-faceted 
issue. Tribal representatives and your counterparts in the Senate have 
identified several aspects of missing and murdered cases that require 
focused attention from Federal agencies: unresolved, or ``cold,'' 
cases; validating reported data; improving data collection; improving 
law enforcement protocols and our response to victims and their 
families; researching a possible correlation between human trafficking 
and cases of missing or murdered Natives; and addressing the missing 
and murdered issue in urban communities. The Department of Justice will 
serve as the lead agency for data-related topics and the improvement of 
law enforcement protocols.
    The U.S. Attorney community has already initiated work to address 
these areas. Starting in early 2018 with the first meeting of the 
Attorney General's Native American Issues Subcommittee for this 
administration, we identified four priorities related to reducing 
violent crime in Indian Country, including missing and murdered 
Indigenous women and violence against women. Since that time, we have 
addressed missing and murdered Indigenous persons at every meeting: we 
had a dedicated panel on this topic at the national U.S. Attorneys 
Conference and supported deeper discussion with agency partners at a 
breakout session. We also included a training on this issue at the 
recent Native American Issues Subcommittee meeting at Santa Ana Pueblo, 
in my home district of New Mexico. Moreover, United States Attorneys 
with Indian Country or federally recognized tribes in their district 
have already begun working with the Federal Bureau of Investigation 
(FBI) to identify open or outstanding missing and murdered Indigenous 
persons cases for review. The Native American Issues Subcommittee Chair 
and Vice Chair also met with senior FBI officials to discuss 
investigative protocols and processes for murdered persons cases 
arising out of Indian Country.
    In addition to our discussions within the Department of Justice, we 
are also conscious of the need to listen to and heed the voices of 
those whose lives have been immediately impacted by this issue. Just 3 
weeks ago, along with several of my U.S. Attorney colleagues, I 
attended a tribal consultation in New Buffalo, Michigan, hosted by the 
Department's Office on Violence Against Women. We heard firsthand, from 
tribal leaders and others, about the emotional and psychological toll 
that the high rate of missing and murdered takes on families and 
communities, and we are committed to standing beside them to address 
this issue.
    We are working closely with our colleagues at the FBI to better 
understand how data on reports of missing or murdered persons are 
collected, how often those numbers are updated, and what protocols are 
required to resolve reported cases. We have begun a targeted effort to 
educate Federal prosecutors and law enforcement, with an ultimate goal 
of establishing improved and more standardized protocols for data 
collection, reporting, and case management. As we take steps to improve 
our response to cases of missing or murdered Indigenous people, the 
combined Federal team will reach out to our tribal, state and local 
partners to ensure that the improved practices and protocols reflect 
input from all of the agencies that contribute to cases of missing or 
murdered persons.
    Ongoing coordination in Montana further illustrates the 
Department's commitment to a collaborative approach to address the 
missing and murdered issue. On June 12 of this year, the U.S. 
Attorney's Office, the Montana Department of Justice, the FBI, and the 
Bureau of Indian Affairs (BIA) co-sponsored a day-long Missing Persons 
Training for both law enforcement and the public. Our goal was to 
inform law enforcement and the public about the problem of missing 
Indigenous persons, and the various missing persons databases and 
alerts. Law enforcement were also trained on responses to missing 
persons reports, and victim awareness and support. The public was also 
trained on what to do when a loved one goes missing and on human 
trafficking issues. Presenters included the FBI, BIA, National Crime 
Information Center (NCIC), National Missing and Unidentified Persons 
System (NamUs), the National Center for Missing and Exploited Children, 
AMBER Alert, the Criminal Justice Information Network, Montana 
Department of Justice Missing Persons Clearinghouse and Montana 
Analysis Technical Information Center. More than 120 people attended, 
including members of the general public, persons with tribal 
affiliations, and criminal justice and law enforcement representatives. 
We will be holding another statewide training this fall in Billings, 
Montana.
    At its request, the U.S. Attorney's Office in Montana has been 
appointed to the Missing Indigenous Persons Task Force created by the 
Montana legislature. In addition, earlier this year the U.S. Attorney's 
Office in Montana coordinated with NamUs to provide training to the 
tribal council, government officials and MMIW working group of the 
Confederated Salish and Kootenai Tribes, and to the public on the 
Northern Cheyenne Indian Reservation. They are also coordinating to 
provide training to the public on other Montana reservations this fall. 
To further public awareness, the U.S. Attorney's Office in Montana is 
also working on a public service announcement on what to do when a 
loved one goes missing on or off a reservation.
    The Department is eager to work with our Federal, state, tribal, 
and local partners in any locality to ensure the full weight of our 
collective efforts make a lasting impact on lowering the rates of 
missing and murdered people, especially women, in Native communities.
    In addition to honing our law enforcement response to reports of 
missing or murdered people, the Department is advancing our technology 
to better support law enforcement and families investigating these 
cases. Our technological advancements include expanded efforts to 
assist tribes interested in integrating AMBER Alert protocols. Our 
Office of Justice Programs (OJP) provides funding and technical 
assistance opportunities to integrate tribal AMBER Alert communication 
plans with state or regional plans. OJP maintains evaluations of 
readiness, training needs, technological challenges, and other 
obstacles to integrating communication plans. These evaluations help us 
align our resources with the needs expressed by tribal representatives. 
AMBER Alerts have become a critical tool in responding quickly to 
reports of missing persons. Our focus on improving law enforcement 
information sharing will continue to be an important component of our 
response to the issue of missing and murdered Indigenous people.
    In late July, I presented at the National Amber Alert in Indian 
Country Symposium at Isleta Pueblo in New Mexico. Funded through OJP's 
Amber Alert Training and Technical Assistance Program, and designed to 
further implementation of the Ashlynne Mike Amber Alert in Indian 
Country Act of 2018, this symposium focused on the logistics of 
ensuring adequate collaborations between state and local Amber Alert 
plans and tribal law enforcement. As the Committee is well aware, the 
goal of extending Amber Alert to our tribal communities, and ensuring 
appropriate access to Amber Alert by tribal law enforcement was 
motivated by the unspeakably tragic abduction and murder of 11-year-old 
Ashlynne Mike on the Navajo Nation in New Mexico. Participants at the 
symposium got to hear directly from Ashlynne Mike's mother, Pamela 
Foster. Her moving story about her daughter, and the personal 
devastation she suffered upon learning of her loss, underscored the 
critical importance of an effective Amber Alert system for our tribal 
communities.
    Another one of our key systems is the National Institute of 
Justice's (NIJ) NamUs. NamUs was developed to help identify 
unidentified remains, locate missing persons, and bring resolution to 
victims' families. NamUs is a national, centralized, web-based 
information clearinghouse and resource center for missing, 
unidentified, and unclaimed person cases. NamUs combines technology, 
forensic services, and investig/ative technical assistance from a 
seasoned staff of subject matter experts to support and assist law 
enforcement officials, medical examiners and coroners, allied forensic 
professionals, and families from across the country.
    The NamUs database is a permission-based system, meaning it offers 
both a publicly viewable information and restricted criminal justice-
sensitive fields designed to protect privileged information. Cases are 
only published in NamUs after rigorous vetting with the appropriate 
local, state, Federal, or tribal law enforcement agency in order to 
secure the privacy and protection of persons reported missing and to 
ensure quality control over the missing person data. For instance, some 
missing person reports involve individuals who do not wish for their 
location to be known to family or associates due to circumstances 
involving domestic violence and other safety issues. Since the majority 
of the cases reported to FBI's NCIC are recovered quickly and use of 
NamUs is not a mandatory part of all law enforcement protocols for 
missing persons, many are never entered into NamUs. With the support of 
the Office for Victims of Crime (OVC), NamUs has been expanding to 
include a Victim Services Division (VSD) to support the families and 
loved ones of missing and murdered victims with a variety of services 
and resources for coping with their loss. Although NamUs has been a 
successful tool for law enforcement for many years, it will benefit 
from a stronger emphasis on support for the families and loved ones of 
the missing and murdered. Survivors often have few formal support 
systems and often wait years for information about a missing loved one.
    NIJ and NamUs staff have launched a targeted outreach campaign to 
tribal law enforcement, leadership, and community members to ensure 
Native communities are aware of the NamUs technology and technical 
assistance, which are available for free to all tribal nations. More 
online development will occur to reach out to tribes and their law 
enforcement agencies, more training and public awareness about NamUs 
among tribal communities, as well as targeted victim services for the 
families of missing or murdered indigenous women and girls. NamUs has 
helped resolve 400 cases and currently has 402 active AI/AN missing 
persons cases, and we are working to ensure that any tribal agency 
wishing to expand the use of NamUs has our full support. NIJ is 
committed to working with Tribal nations directly to enhance technology 
and provide training, better support and technical assistance, and 
investigative and forensic services.
    The Department recently announced our fifth expansion of the Tribal 
Access Program (TAP), which provides federally recognized tribes with 
the ability to access and exchange data with the national crime 
information databases for both criminal justice and non-criminal 
justice purposes. TAP provides training as well as software and 
biometric/biographic kiosk workstations to process finger and palm 
prints. This access to information empowers tribal law enforcement to 
respond to reports of crime and missing persons in their communities 
more swiftly and more effectively. Access through TAP also enables 
tribes to coordinate more effectively with other law enforcement 
agencies involved in responding to crimes in Native communities.
    The Department has been working with your Senate colleagues on 
several proposed bills that are intended to better equip Federal 
agencies, states, and tribes in responding to reports of missing or 
murdered persons. We have had a number of conversations on technical 
aspects of their proposed legislation and believe the outreach has been 
beneficial. For example, Senate staff have worked with Department of 
Justice subject matter experts in developing language for S. 227 
``Savanna's Act,'' which presents a series of clear and targeted 
actions that would, in their current draft, improve tribal access to 
databases, establish guidelines for responding to cases of missing and 
murdered indigenous people, and create annual reporting requirements. 
We welcome similar outreach for technical input from you or your staff 
and would be happy to assist.
    The high statistics on crime in Indian Country motivate all of us 
who dedicate our professional lives to partnering with tribes to 
improve public safety in Native communities. I want to underscore that 
it is never just about the numbers for us. Many of us working in 
support of Native communities have relatives and friends in the places 
we strive to benefit, and we are all mindful of the deeply personal and 
too-often heartbreaking realities faced by individuals, by families, by 
neighbors and friends. Thank you again for the opportunity to discuss 
this serious issue. If there is continued interest in discussing the 
Department of Justice's activities in support of Native communities, we 
would be happy to follow up with you or your staff.

                                 ______
                                 

Questions Submitted for the Record to U.S. Attorney Anderson, District 
               of New Mexico, U.S. Department of Justice

Mr. Anderson did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

                  Questions Submitted by Rep. Gallego
    Question 1. How will the long-term plan of U.S. Attorneys 
presenting at conferences address the on-the-ground efforts of the 
Missing and Murdered Indigenous Women (MMIW) movement?

    Question 2. In your testimony, you mentioned that the Native 
American Issues Subcommittee met with the Federal Bureau of 
Investigation (FBI) to discuss MMIW cases.

    2a. What protocols did you discuss (i.e. jurisdictional, 
investigative, etc.)?

    2b. Will the information and notes gathered for the meetings become 
public?

    2c. Will there be a final report or promising strategies based on 
this intergovernmental agency interaction?

                  Questions Submitted by Rep. Grijalva
    Question 1. Annually, how many of the FBI-referred MMIW cases are 
prosecutable?

    Question 2. In your testimony, you mentioned that you attended a 
tribal consultation in New Buffalo, Michigan.

    2a. What will you do with this information?

    2b. Is the information publicly available?

    2c. Will you provide any other information developed from tribal 
consultations to the Committee?

                  Questions Submitted by Rep. Haaland
    Question 1. The Bridging Agency Data Gaps & Ensuring Safety Act 
addresses the gaps in national MMIW data by requiring BIA direct-
service officers and FBI agents with jurisdiction in Indian Country to 
report missing persons cases to the NamUs database.

    1a. Considering that the FBI and BIA work collaboratively to 
process crime scenes and collect evidence, why do you believe that MMIW 
data collection remains a problem?

    1b. Where can these two departments improve their coordination to 
adequately collect the evidence and data relating to these crimes?

    Question 2. The Office for Victims of Crime (OVD) fund application 
process is lengthy and has several phases. Many tribes do not have the 
administrative staff available to apply for these grants, although 
these critical resources for Indigenous victims are greatly needed.

    2a. Has your agency looked critically at this process? If so, does 
BIA plan to simplify the application process or provide additional 
administrative assistance to help tribes apply?

                                 ______
                                 

    Mr. Gallego. Thank you. I thank the expert witnesses for 
their powerful testimonies. I am reminding the Members that 
Committee Rule 3(d) imposes a 5-minute limit on questions.
    The Chairman will now recognize Members for any questions 
they may wish to ask the witnesses. I will start by recognizing 
myself for 5 minutes.
    Mr. Addington, in your testimony you mentioned that gaps in 
data pose great obstacles to Murdered and Missing Indigenous 
Women investigations, and that the alleviation of such gaps 
remains of importance to BIA. What initiatives has your agency 
undertaken to remedy this issue and alleviate gaps in the data?
    Mr. Addington. Thank you for that question. One of the 
things that we have done is we have partnered with NamUs to try 
to start gathering the ``Missing and Murdered'' cases that are 
still active throughout Indian Country and actually get them 
into a system where we can have the data, where we can actually 
pull and report and see exactly how many cases there are.
    Currently, there is not a system in place that we can just 
go to at the BIA and pull that data because some cases are 
worked by other agencies as well. So, we are working with 
NamUs--all the BIA has already been--and I have put a policy in 
place that we will enter all of our data into the system, and 
we are trying to get the tribal programs, encouraging them to 
enter their data as well.
    Once we get those cases entered into the NamUs system and 
using the new data fields, that is going to give us the 
opportunity to be able to pull a report and see exactly how 
many cases that we have out there so we can start working on 
investigating cold cases or cases that are active that we are 
not aware of that may be older.
    So, that is what the Department is doing right now to 
address it.
    Mr. Gallego. And since we are talking about NamUs, in your 
testimony you mentioned your work along with NIJ to improve the 
NamUs database so it can better address the MMIW cases. NamUs 
has been around now for about 10--well, 11 years. However, it 
has taken over 10 years to add basic tribal affiliation data 
fields to its systems. Why did it take the Department of 
Justice and BIA over 10 years to see the flaw in their data?
    The second question is: Prior to the tribal affiliation 
data field, what was used in place of that to actually collect 
this--i.e., were all crimes listed as just ``Indian'' or some 
similar type of category?
    Mr. Addington. Prior to 2012, 2013 at the Bureau of Indian 
Affairs, we actually collected additional data from the tribes 
and the BIA programs specifically to BIA that was outside of 
the UCR data. So, once we started just submitting the UCR data, 
we quit collecting that information because of getting the 
information transferred from the BIA over to the FBI in the 
exportable file from the tribes. It became really burdensome 
for the tribes, so we tried to streamline that process, which 
caused us not to collect that data any more.
    Mr. Gallego. On that note, what is going to happen with 
that data, previously collected information that was sorted 
differently than it is now in the NamUs system?
    Mr. Addington. The data we collected before did not have 
the specific data fields where it broke the data down. We just 
collected the numbers from the tribes, so like missing person 
numbers. But it did not go into detail of the cases or 
anything.
    By working with NamUs and adding those specific fields in 
there, we can actually determine what their tribal affiliation 
is, whether they have gone missing from Indian Country or off 
of Indian Country, because of course we only have jurisdiction 
on Indian Country for the BIA. So, we can actually pair those 
down and see specifically where the cases are coming from and 
differentiate between the state cases, the BIA cases, and the 
Federal cases.
    Mr. Gallego. To follow up, back in December 2018 you 
testified before the Senate Committee on Indian Affairs in a 
hearing titled, ``Missing and Murdered: Confronting the Silent 
Crisis in Indian Country.'' We read your public testimony then. 
I have noticed that the testimony you submitted this week is 
very similar to the testimony that you had last December. In 
fact, it looks like an entire paragraph of your current 
testimony detailing BIA's new training program initiatives has 
been copied and pasted verbatim from your prior testimony.
    With that being said, recognizing that we are in dire 
straits in the status of Missing and Murdered Indigenous Women, 
how do you explain what the BIA has been doing in the last 
year? For me, from my perspective and the staff perspective, 
what we see is nothing but inaction. So, I would like to 
understand: What is the actual action that is going to be 
coming out of this?
    And please explain to us what other tasks or actions your 
office has taken in regards to dealing with MMIW.
    Mr. Addington. The one thing that we have done is expand 
our training and our awareness out there. Getting more training 
out to any law enforcement programs was crucial because we 
identified that there were some response issues in some of the 
previous cases that we reviewed.
    So, getting additional training out there so folks know how 
to respond--because a missing person report that comes in is 
not necessarily a crime when it is reported in to our police 
departments out there. We have to treat those with more or 
better response, so that is what we have tried to put in place, 
to make sure folks are trained.
    We have redone our policies internally to make sure that we 
have strengthened our policy on the response of missing persons 
and abducted persons for the BIA as well. And then we have 
started holding sessions to listen to tribal leadership on what 
the issues actually are out in Indian Country. And we are 
looking at different options, like cold case task forces, 
different things like that, to actually start addressing some 
of these cases that are out there that have not been solved 
over the years.
    Mr. Gallego. OK. Well, I will come back to this.
    Now I recognize Ranking Member Cook.
    Mr. Cook. Thank you very much.
    When you were talking, you mentioned the Amber Alerts. For 
years, we never had the Amber Alerts or similar programs where 
you could highlight it right away. And I know you are doing 
that, but I am not sure if it is coordinated.
    And can I get some feel whether that would immediately go 
out through all of Indian Country when we have somebody missing 
or we have a tragic situation, where people might have data 
that could help law enforcement? I am just not getting a good 
feeling, because in California we tried to do that for years 
and it never got that way until, finally, it was adopted and it 
was a great program.
    And here is where I am going with this, and I will let you 
comment, because on the seriousness and the importance to this 
Subcommittee and to the whole Committee, I am wondering if we 
should elevate this to the situation where at least you could 
send us, as people that have oversight responsibility and enact 
laws and regulations, that hey, what is this? You have had 
three Amber Alerts in this area here. What are your 
recommendations? What has been done?
    And I don't want to micro-manage. But the situation is so 
bad right now that--I was in the Marine Corps, and it needs 
command attention. So, what I was just suggesting in terms of 
informing us on this, with the circumstances and recommended 
action, including, if need be, suggested legislation. What do 
you think of that proposal?
    Mr. Addington. Thank you for that question. I absolutely 
think the Amber Alert system should be expanded and that we do 
have some Indian Country programs that actually have been able 
to make Amber Alert notifications. And we have some states that 
actually have a state system as well.
    So, we try to get the information out. When something meets 
the criteria to do an Amber Alert, we try to get the 
information out as wide as we can in those situations. And 
there are also some localized situations. If we have a missing 
person that may not reach up to an Amber Alert situation, we 
have some notification systems locally that we can actually get 
that information out so we can be on the lookout for that 
person before it becomes a criminal offense or they get harmed.
    Mr. Cook. Yes. And I don't want to continue on this, but I 
just want to emphasize again, we had a situation a number of 
years ago where a number of people were killed. And it ended up 
that it was the same murderer--somebody in law enforcement, I 
might add--that had some real problems. Actually committed a 
crime, and I won't go into that.
    But the DNA evidence, everything else, which has moved 
light years in the last decade, I would say, that we can share 
all over. And if it is not being done or something like that, 
then I think maybe--I am speaking just for myself, not on 
behalf of the whole Committee--but I think a lot of us are just 
frustrated.
    In the short time that we have in Congress, we want to do 
something because the stats and the number of folks are so 
unsatisfactory right now. So, I am looking for suggestions, 
proposals, that we might have as part of oversight or even, as 
I mentioned earlier, with law to do this.
    How many people got killed in California because nothing 
was done when people didn't even recognize it? It is a large 
state, granted, but they were all over the state. And somebody 
finally said--wait a minute. We have the same killer all over 
the place.
    I am not saying that is the scenario. But I think, loud and 
clear, we want to be involved. And at least some type of Amber 
Alert to at least this Committee, should be in order, with what 
happened, the circumstances. And recommended congressional 
action, if any, should be taken. Thank you. That was just a 
comment.
    I yield.
    Mr. Gallego. Thank you, Ranking Member.
    I now recognize Chairman Grijalva.
    Mr. Grijalva. Thank you very much, Mr. Chairman. Recently, 
the Trump administration hosted a roundtable discussion on the 
theme of ``Reclaiming our Native Communities'' with tribal 
stakeholders. In BIA's testimony, you acknowledged the 
discussions and noted that a roundtable occurred in Sacaton, 
Arizona last May.
    However, DOI's online press release states that the 
discussion occurred at Sacaton on June 11, and that 
representatives from BIA and ANA were both present at that 
particular roundtable discussion. However, it still remains 
unclear how many of these discussions occurred. You can notice 
that by the date discrepancy, and what was established at them.
    So, Commissioner Hovland and Deputy Bureau Director 
Addington, is there a public readout or transcript from this 
roundtable that is available to the Committee or to the public?
    Mr. Addington. There is not yet. We have held three so far.
    Mr. Grijalva. So, I am assuming you will release public 
information related to who attended the meetings and general 
notes and summaries regarding those meetings when you are 
finished with these roundtables?
    Mr. Addington. I am not sure if something will be released 
to the public. I know the information will be used for tribal 
comments and what the tribes are wanting us to do in those 
communities.
    Mr. Grijalva. And do you consider this tribal consultation 
in any way?
    Mr. Addington. No. These were listening sessions with the 
tribal leadership.
    Mr. Grijalva. So, concrete plans of action were proposed or 
considered during these discussions? Or was it more of an open-
ended kind of a discussion?
    Mr. Addington. No. We did discuss some of our thoughts on 
cold case task forces and some of the things that the 
Department would like to do to address some of these issues. 
Those were discussed. We did a presentation for tribal leaders. 
But we wanted to hear from the tribal leadership of what their 
thoughts are and what ideas that they have to address these 
issues in their community because they are best to know what is 
going on in their communities.
    Mr. Grijalva. OK. I think there is a great deal of interest 
on the part of the Committee, and certainly the Chairman and 
Ranking Member, to have as much information as available from 
these areas in order to continue to not only be informed but to 
know what direction we need to be taking legislatively.
    Mr. Addington, a couple of questions that have to do with 
the comments that you made. And it was testimony relative to--
you highlighted the importance of the Violence Against Women 
Act, specifically how this legislation has helped illustrate to 
Federal agencies the higher rates of violence against women in 
Indian Country.
    Would you agree that the Violence Against Women Act needs 
to be reauthorized?
    Mr. Addington. Yes. Absolutely. Anything, any tools that we 
can give Indian Country to better enforce crimes against our 
Native women and community members we would happily support.
    Mr. Grijalva. How many officers are currently on staff 
within BIA's police forces? And is that a sufficient number to 
deal with the crisis that this hearing is about?
    Mr. Addington. Well, I can tell you law enforcement 
programs throughout Indian Country are all under-resourced 
right now. It has been very difficult to recruit not only for 
tribal law enforcement programs, BIA programs, but either other 
Federal agencies and state agencies.
    We have talked to a number of leaders in these different 
law enforcement programs, and everyone is running across the 
issues of recruitment. So, they are definitely not resourced 
where they need to be, or every one of them is not. Some tribal 
programs are better than others just because of the location 
that they are in, and they are able to find applicants for law 
enforcement programs.
    Mr. Grijalva. So, it is insufficient?
    Mr. Addington. I think we could always use more resources, 
yes.
    Mr. Grijalva. Madam Commissioner, in your testimony you 
mentioned your work this year with the Intradepartmental 
Council on Native American Affairs. Could I ask you who is 
involved in the council? What types of policies or plans are 
proposed on the specific issue for this hearing--Murdered and 
Missing Indigenous Women and human trafficking issues? And is 
that information available to the public? Is information about 
these meetings public or not?
    Ms. Hovland. Thank you for that question. The 
Intradepartmental Council on Native American Affairs was 
established by law under the Native American Programs Act. It 
is an internal work group designed really to ensure that at 
HHS, when we are developing policy and budgets that affect 
Native Americans, that we are working collaboratively.
    So, it is our internal work group, and we have met three 
times. Yesterday was our third meeting. And it is leadership 
across HHS, so SAMHSA, CMS, HRSA, IHS, ACF, all of the 
stakeholders. And, yes, MMIW, as well as it cross-sections with 
opioids and substance abuse in human trafficking, is one of our 
priority areas.
    We receive our input through tribal consultations, the 
Secretary's Tribal Advisory Council, which is taking place this 
week in Washington, DC, as well as next week in Temecula. I am 
hosting consultation and will have a couple of hours for tribal 
hours to visit with the ICNAA body.
    Mr. Grijalva. Thank you. My time is up? OK. Thank you very 
much.
    Mr. Gallego. We will have more rounds of questions. Thank 
you, Mr. Chairman.
    I now recognize Representative San Nicolas.
    Mr. San Nicolas. Thank you, Mr. Chairman.
    Can you imagine if the women murder rates in Washington, DC 
were 10 times the national average? Or can you imagine if the 
women murder rates in Los Angeles, or Chicago, or Houston, or 
New York, or Miami were 10 times the national average? We would 
be alarmed to no end.
    But what makes these statistics even more horrific is that 
our Indigenous populations are already distressed populations. 
So, they are 10 times the national average in already 
distressed populations.
    So, as I take all of this in--I am a new Member of 
Congress. It has been an honor to be a member of this 
Committee. I am the Representative from Guam. I have an 
Indigenous population on Guam. We are an unrecognized people; 
hopefully one day we can be. But one of the things that scares 
my people from even being recognized is the fact that we have 
these kinds of statistics that go unaddressed in already 
existing recognized peoples. And constitutionally, the 
responsibility of this country rests here in this Congress to 
be able to address these kinds of concerns.
    And as I listen to the testimony, I hear a lot of movement, 
but I am not quite certain that there are going to be actual 
outcomes.
    So, my question is very specific. If we have a statistic 
that says that the murder rates for our women in Indigenous 
communities is 10 times the national average, what is the 
timeline for us to drive this figure back down to the national 
average? Are we going to drive it down in the next year? The 
next 5 years? The next 10 years? What is the timeline for us to 
be able to anticipate when we are going to be able to come back 
to this Committee and say that we have solved this problem and 
we are no longer so egregious in these kind of statistics?
    Mr. Anderson. Congressman, thank you for the question. I 
wish I could tell you a time frame. I wish I could tell you we 
would come back here in 6 months, a year, 2 years, and have 
driven those rates down to an acceptable level--not that there 
is an acceptable level of murder in our society. But the points 
you make are fair ones.
    I can tell you, from the Department of Justice's 
activities, we are actively engaged, along with our Federal law 
enforcement partners, in making every effort to reduce the 
unacceptable levels of violence that we do see in our tribal 
communities.
    In my office, we have 11 full-time prosecutors who are 
dedicated to working with our Federal law enforcement and local 
and tribal law enforcement partners in investigating and 
prosecuting criminal cases, principally violent crime cases, 
that occur in our tribal communities. I serve on the Native 
American Issues Subcommittee of the Attorney General's Advisory 
Committee, and it is an exceptionally active subcommittee that 
works to address, on a holistic, comprehensive level, the 
issues of violent crime that we see across the country in our 
tribal communities.
    The short answer is, I do not have a time frame for you. I 
wish that I did. But we are actively engaged. We are devoted to 
pursuing criminal justice in Indian Country, to investigating 
and prosecuting cases to the best of our abilities. I continue 
to be hopeful, as I know my Federal law enforcement partners 
do, that those efforts will ultimately yield a reduction in the 
unacceptably high rates of violent crime in our tribal 
communities.
    Ms. Hovland. Thank you for your question. I really 
appreciate that.
    At the Intradepartmental Council on Native American 
Affairs, we discussed and we are going to be setting goals and 
benchmarks, we are in the process of that. I am Deputy 
Assistant Secretary for the Administration for Children and 
Families as well. And really, at ACF, we are designed to help 
strengthen individuals, families, and communities.
    And there are a lot of great things taking place in our 
Native communities through their ACF programs. We are going to 
be visiting some of our tribes that have great one-stop shops--
because that is what we are hearing, is there needs to be a 
one-stop shop of wrap-around services--and then encourage that 
in other communities.
    But I also wanted to let you know that I had the honor of 
traveling to your homeland this summer with members from our 
ICNAA group, the Intradepartmental Council, and had a great 
roundtable that was hosted by your governor and lieutenant 
governor on human trafficking. And we are working in 
partnership with them to be able to come up with a strategy.
    Again, we want to be respectful of culture, which is why we 
are trying to get to the different regions and develop them.
    Mr. San Nicolas. My time is running short. I appreciate the 
answers. I am sure, Mr. Addington, you will say something 
similar.
    The reason why I raised the point in the beginning of my 
statement about how this would be considered a national crisis 
if it was a statistic affecting any one of our cities is, 
appreciating the work that you do, for us not to be able to 
have a concrete timeline and to be acting with a sense of 
urgency underscores the fact that we need to do a lot more than 
what we currently are.
    And what this Congress needs to do to support you, I think, 
is something that we will be more than willing to entertain. 
So, I would suggest that we work to a level where we develop 
the strategy to be able to come back with a timeline. If this 
was happening in DC, or LA, or Houston, or New York, or Miami, 
we would have a timeline. We would say, we are going to drive 
this down in the next year or the next 2 years.
    And for us to be able to say, ``We are going to be able to 
do our best,'' I think is just very sad.
    Thank you, Mr. Chairman.
    Mr. Gallego. I now recognize Representative Case of Hawaii.
    Mr. Case. Thank you, Chair.
    Like my colleague from Guam, I represent an Indigenous 
population. I represent the Indigenous peoples of Hawaii, the 
Native Hawaiians. There are well over half a million Native 
Hawaiians living in our country, of whom roughly 300,000 live 
in Hawaii proper.
    This number is obviously large, much larger than many of 
the federally recognized tribes, and they also suffer from many 
of the indicia that you have identified in your testimony, 
whether it be outright missing and murdered Indigenous women, 
Native Hawaiian women, to domestic violence, to crime rates, to 
sexual assault, to lost loved ones. Every indicia also impacts 
Native Hawaiians.
    And I say this not only on behalf of Native Hawaiians but 
on behalf of many Indigenous peoples throughout our country who 
do not fit easily into your definitions of ``Indian Country'' 
and ``Tribes'' and ``Reservations'' and all of the more 
structured Federal 150 years' worth of law dealing with 
Indigenous peoples.
    And I think that sometimes they get left out of this 
equation. Certainly, I know that Native Hawaiians feel that 
they are often treated as an afterthought by the Federal 
Government when they are Indigenous peoples and when they 
deserve the same attention when they have the same consequence, 
deserve the same attention, the same programs.
    So, testimony that says Native Americans and Alaska Natives 
that does not also say Native Hawaiians is just a knee-jerk 
reaction from me: Why not? And I am sure the gentleman from 
Guam would feel the same way.
    First of all, I want to make that point because every time 
we talk about any issue in this Subcommittee or in your work, I 
hope you always think about Native Hawaiians and other 
Indigenous peoples beyond what you consider Native Americans 
and Alaska Natives, No. 1.
    No. 2, in that vein, have you considered or consulted with 
the Native Hawaiian community, which is structured and 
represented, including the Office of Native Hawaiian Relations 
in the Department of the Interior, an existing office, on this 
particular issue? So, in other words, has there been outreach? 
Has there been inclusion? Has there been consultation? And if 
not, can you do that? Ms. Hovland, I think you are probably the 
appropriate person.
    Ms. Hovland. Yes. Under our statute, under the Native 
American Programs Act, Native Americans are defined by law, 
which includes Native Hawaiians and the Native Pacific Island 
relatives also. So, yes, during that period that we were in 
Guam, we were over for 2 weeks in the Pacific Basin, and we 
actually had 2 days of roundtables which we partnered with the 
Office of Hawaiian Affairs. And one of the topics was human 
trafficking and murdered Indigenous peoples.
    And we had law enforcement there since Interior does not 
have jurisdiction with law enforcement. We also did have the 
Department of the Interior's Insular Affairs present, and we 
had very good dialogue. We are working with those stakeholders 
that were identified as we develop, again, a plan specific to 
their communities and considering the culture.
    So, we want the community members to lead it, and we will 
help develop the framework and see what services we can provide 
to support that.
    Mr. Case. Certainly. I am willing to work with you on that 
on behalf of Native Hawaiians, and not just in Hawaii but 
everywhere.
    And then to Mr. Addington and Mr. Anderson, any particular 
comment on focus or inclusion or consideration of Native 
Hawaiians and perhaps other Indigenous peoples not within the 
structured Federal regime?
    Mr. Addington. Well, for the Bureau of Indian Affairs, of 
course, like Ms. Hovland said, our problem is that we have no 
jurisdiction there. So, that is one of the reasons we have not 
engaged in that side of the house, is we are trying to come up 
with some concrete solutions and things for places where we 
have jurisdiction and where we have a need for resources right 
now.
    Mr. Case. Fair enough. Well, we would like to get into your 
jurisdiction at some point.
    Mr. Addington. You bet.
    Mr. Case. And Mr. Anderson?
    Mr. Anderson. Thank you, Congressman. I will have to get 
back to the Committee about what efforts are particular to 
Native Hawaiians. We do have jurisdictional efforts there 
insofar as it is not considered Indian Country for purposes of 
the Federal law enforcement.
    Mr. Case. Fair enough. But from your perspective in the bar 
association and the other efforts that you are going through, 
please just consider my comments and take that back and log it 
into your thinking whenever you are dealing with these 
particular issues. I appreciate the effort.
    Mr. Anderson. Thank you, Congressman.
    Mr. Gallego. Thank you, Representative Case.
    I now recognize Representative Haaland.
    Ms. Haaland. Thank you so much, Chairman.
    Before I begin my brief statement and questions, I wanted 
to recognize Navajo Nation Council Delegate Amber Crotty, who 
worked tirelessly on the PROTECT Act, which was signed into 
law, that makes tribes eligible for Federal grants from the DOJ 
to aid in implementing the Amber Alert system, and has worked 
tirelessly on the Navajo Nation and the state of New Mexico on 
missing and murdered Indigenous women. And I thank you for 
being here.
    Before I begin my questions, I would like to briefly state 
that the Missing and Murdered Indigenous Women issue has been 
one of my top priorities this Congress. And I thank each of you 
for being here today. I really appreciate you coming and 
speaking with us.
    The U.S. Government has a trust responsibility to Indian 
tribes. Statistics show that 8 in 10 Indigenous women will be 
raped, stalked, or abused in the course of their lifetimes, and 
the National Institute of Justice has stated that 84 percent of 
Native women experience violence.
    This crisis has very deep and long-standing roots in our 
country. It is something that just did not start a few 
generations ago. On some Native lands, Indian women are 
murdered at more than 10 times the national average, so we can 
see why, as a topic of discussion, that we need to take action 
to stop this silent crisis.
    This week is the 25th anniversary of the Violence Against 
Women Act, which has critical provisions for Indian Country to 
protect Native women. But more work must be done. The Violence 
Against Women Act was passed in the House in April of this 
year, and it has yet to see the light of day on the Senate 
side. That bears repeating: It has yet to see the light of day 
on the Senate side.
    My first question is for Mr. Anderson. Thank you so much 
for being here with us from New Mexico. I introduced the 
Bridging Agency Data Gaps and Ensuring Safety Act, which partly 
focuses on law enforcement data-sharing with tribes through the 
DOJ's Tribal Access Program, TAP is the acronym.
    Your agency has previously stated that only about 75 out of 
573 tribes will participate in TAP by the end of the 2019 
fiscal year, and this seems really low. Do you believe that TAP 
is under-utilized by tribes? And why, in your opinion?
    Mr. Anderson. Thank you, Representative. TAP is a valuable 
tool to promote the sharing of information between tribal law 
enforcement and to obtain tribal law enforcement access to 
national criminal information databases.
    My colleagues at the Office of Tribal Justice within the 
Department of Justice are proactively working to roll out the 
TAP to more tribes across the country. I expect that at this 
rate, we are getting it out to 25 tribes per year, and by the 
end of 2020 we hope to get TAP Light, which is the software 
exclusively, as opposed to the hardware, out to all tribes that 
have their own law enforcement agency. So, it is actively being 
pushed out.
    In terms of being under-utilized, I think it depends on 
which tribe we are talking about. As a rule, I don't believe it 
is under-utilized. I think it has provided a valuable avenue 
for tribes and tribal law enforcement to obtain access to those 
national databases.
    Ms. Haaland. Thank you. When you say that it is being 
rolled out to more tribes as we move forward, what is the 
application process like for tribes to participate in TAP each 
year? And do you believe that the application process is any 
type of barrier to their participation?
    Mr. Anderson. No, Representative. The application process, 
there is an initial application that simply requests 
information about the tribal infrastructure, what type of 
tribal law enforcement exists, what type of administration 
capabilities there may be.
    So, there is an initial, I wouldn't even call it an 
application. I would call it more of a vetting process to help 
the Department understand how the TAP can be utilized most 
effectively. I don't believe that consists or considers a 
substantial barrier to the tribal application and access to the 
TAP.
    Ms. Haaland. Thank you. I am almost out of time. I will try 
to fit this last one in.
    This is still for you, Mr. Anderson--the BADGES Act also 
requires BIA direct service officers and FBI agents with 
jurisdiction in Indian Country to report missing persons cases 
in the National Missing and Unidentified Person System Database 
since there are currently large gaps in data collection, making 
it difficult for Congress to know how expansive this issue 
really is.
    Even though the FBI and BIA work together to process crime 
scenes and evidence collection, why do you believe the data 
collection is lacking? Where can these two departments improve 
their coordination to adequately collect evidence and data of 
these crimes?
    Mr. Anderson. Representative, I think the data collection, 
where we are most in need of improvement is in facilitating the 
effective exchange of data between tribal law enforcement and 
the Federal law enforcement counterparts. I believe that the 
TAP certainly would help that. The expanded efforts to improve 
public awareness of and access to NamUs, and inputting data 
into NamUs, would also facilitate that exchange of information.
    Ms. Haaland. Thank you. I yield, Chairman. Thank you for 
allowing me the time.
    Mr. Gallego. Thank you, Representative. We will be doing a 
second round of questions, too, if you have follow-up 
questions.
    I want to switch back to Mr. Anderson. Last December, the 
National Institute of Justice's Director of Investigative and 
Forensic Sciences, Gerald LaPorte, noted that Fiscal Year 2018 
was the first time that the Office of Justice Programs received 
funding from the Crime Victims funds to meet the needs of 
Native victims.
    Does that means that before Fiscal Year 2018, there were no 
funds specifically allocated to meet the needs of Native 
victims of violence? And if so, why?
    Mr. Anderson. Representative, I know that in Fiscal Year 
2018 and in Fiscal Year 2019 there is a substantial set-aside 
from the office OVC funds, obviously, for tribal projects and 
to serve victims of crime within tribal communities. I believe 
there were funds before that, but I would have to confirm that 
for the Committee.
    Mr. Gallego. If you find out, can you make sure you let my 
staff get that information?
    Why do you believe you were sent as the designee from the 
National Institute of Justice if you cannot really speak to 
their operations? You have a lot of great experience, 
obviously, as a U.S. Attorney in New Mexico, a state that has 
many of our Tribal Nations. But it is odd that you were picked 
specifically because we really need more information when it 
comes to the National Institute of Justice.
    In your opinion, did they tell you why?
    Mr. Anderson. I am sorry, Congressman. Why I was sent 
today?
    Mr. Gallego. Yes.
    Mr. Anderson. I am heavily involved in the issues that the 
Committee is here to address today. I am active in the Native 
American Issues Subcommittee, very active in particular on the 
issue of Missing and Murdered Indigenous Women. I like to think 
that I am generally knowledgeable about those issues. My 
knowledge is not perfect, but I suppose I was deemed a suitable 
candidate because of my overall involvement in these issues.
    Mr. Gallego. Yes. No doubt you are very knowledgeable. Like 
I say, we have a lot of questions that would have been, I 
think, better answered by somebody from the National Institute 
of Justice. But in terms of your personal experience, you are 
very well-grounded there.
    In total, how much money was awarded from the Crime Victims 
fund?
    Mr. Anderson. Congressman, I believe it was approximately 
$100 million. I know, of the set-aside last year----
    Mr. Gallego. Do you know how long these grants go for? Is 
there a shelf life to them?
    Mr. Anderson. I don't believe there is. I believe they are 
no year funds.
    Mr. Gallego. OK. Do you know----
    Mr. Anderson. Three years.
    Mr. Gallego. Three years? OK. Do you know who some of these 
awardees are? And what type of programs are they specifically 
funding?
    Mr. Anderson. The OVC, the Office of Victims of Crimes 
funds, Congressman?
    Mr. Gallego. Yes.
    Mr. Anderson. They can fund any type of program that is 
directly related to victims of crime. They are subject to 
applications, but any type of program, as long as it directly 
serves victims of crime, is eligible for funding under the OVC 
programs.
    Mr. Gallego. I am now more speaking to your experience as a 
U.S. Attorney of New Mexico. As you are aware, there have been 
jurisdictional challenges that have impeded the prosecution of 
cases in the past, allowing crime against Indigenous 
communities to go unpunished.
    What steps has your office taken to improve prosecution of 
these crimes and reduce barriers to enforcement in Indian 
Country? And what can you recommend that other offices do the 
same as yours?
    Mr. Anderson. Congressman, are you referring specifically 
to jurisdictional challenges or challenges more broadly of 
prosecutions in Indian Country?
    Mr. Gallego. Both. Let's just hit both.
    Mr. Anderson. Certainly. On the jurisdictional front, one 
of the important things that we do is collaborate with our 
state, local, and tribal law enforcement partners. Given that 
New Mexico has a substantial number of Pueblos, and we also 
have the Navajo Nation, it is important for us, in identifying 
where a crime occurred, that we have effective communication 
and collaboration with those state, local, and tribal partners.
    The number of cases in my office really turn on the actual 
location of the offense and whether that is within the 
boundaries of a Pueblo or Indian Country, as the term is 
defined by statute. So, one of the most effective tools we have 
is that collaboration and identifying those boundaries and 
working with state, local, and tribal partners.
    I would also point to the cross-commissioning that we do 
under a special law enforcement commission to allow those state 
and local partners to enforce Federal law along with our 
Federal law enforcement partners, and that ameliorates some of 
the jurisdictional challenges we face.
    Mr. Gallego. I now yield to Delegate San Nicolas.
    Mr. San Nicolas. Thank you, Mr. Chairman.
    Mr. Addington, I wanted to follow up on a statement you 
made earlier when responding to questions from Chairman 
Grijalva. You mentioned that there are impediments to law 
enforcement recruitment with respect to getting individuals to 
do that job in Indian Country. Can you elaborate on what those 
impediments are and what the possible solutions could be for us 
to be able to fix that problem?
    Mr. Addington. You bet. Thanks for that question. One of 
the things that we are seeing is just that nobody wants to get 
into public safety any more like they used to years ago. That 
is one of the biggest things that we are seeing, the applicant 
pool is just not there for positions.
    We advertise a position--where we used to get maybe 15, 20 
people on an applicant list, now we are maybe getting 1 or 2, 
and it may be somebody that cannot pass a background. Of 
course, that person will not be able to go into that position 
because they cannot pass a background. So, the No. 1 thing that 
we are seeing is there are not enough applicants. There is not 
enough interest of getting into public safety programs out 
there.
    Then on the other side, there are a couple other things. 
The salary ranges for tribal law enforcement, BIA law 
enforcement, is lower than most other programs. They can go to 
work for a county, or a city, or another agency and make more 
money working, get better equipment, different things.
    That is one of the other obstacles that we have. We train 
folks, and then they go to work at another program as well. But 
I think the No. 1 thing that we are having a problem with is 
just getting people interested in getting into public safety in 
general.
    Mr. San Nicolas. When you mentioned that the salary for BIA 
law enforcement is low, is that relative to other law 
enforcement positions that are outside of BIA?
    Mr. Addington. That is correct. It would be like other 
Federal programs. We are maybe a grade step lower than our 
Federal counterparts doing the same or similar job in another 
Federal program. But like counties, states, some of those 
programs pay well above what the tribal law enforcement program 
pays because their salary is based upon the allocations that 
they receive to run their programs.
    Mr. San Nicolas. When was the last time we have had a wage 
study done for BIA law enforcement?
    Mr. Addington. I don't know that there has been a specific 
wage study done. I know we have looked at our salary ranges a 
couple different times. We did a full ``Protecting Indian 
Country'' report back in 2010. And then we looked at it again a 
year and a half ago, and still determined that the tribal and 
BIA law enforcement's salaries are lower than other programs.
    Mr. San Nicolas. But those evaluations and determinations 
are all internal?
    Mr. Addington. Yes.
    Mr. San Nicolas. BIA has not engaged the services of a 
third party wage study professional firm to be able to evaluate 
whether or not BIA law enforcement wages are maintained at the 
national average? I mean, if we are paying law enforcement on 
BIA below the national average, then it helps to really explain 
why we are having crime rates over the national average. So, we 
have not engaged a third party wage expert to be able to 
evaluate the wages of BIA law enforcement?
    Mr. Addington. We have not went to a third party or 
anything. And it depends on where you are at across the 
country, too. Some places we are comparable or we may be above 
what a county sheriff's department is actually making. So, it 
is relative to where you are across Indian Country as well. It 
is not across the board. Every location is either being paid 
less or more. So, it depends on what region you are in and what 
area as well.
    Mr. San Nicolas. If the law enforcement salaries on the BIA 
side are below what they typically would get even in other 
Federal law enforcement positions, how is that salary range 
even determined?
    Mr. Addington. It is determined on the GS scale and by the 
appropriations that we have for each one of those programs.
    Mr. San Nicolas. Thank you, Mr. Chairman.
    Mr. Gallego. I now recognize Chairman Grijalva.
    Mr. Grijalva. Thank you very much in the reaction from all 
three witnesses. And I appreciate your time very much.
    It is unfortunate, as the Chairman pointed out, that the 
National Institute of Justice is not here. There are a lot of 
other pertinent questions that we have that should have been 
directed to them.
    But let's just talk about some issues that are part and 
parcel to the whole discussion. My colleague, Ms. Haaland, 
illustrated the piece of legislation that she has and that we 
support. But in terms of legislation, where we deal with issues 
such as salary parity, even within our own jurisdiction, this 
Committee, we have law enforcement in our national parks.
    And I think that is a fair comparison, if one exists, that 
salary parity is an impediment to recruitment and retention. I 
think we need to look at that. And I appreciate that 
information, so that would be mandated.
    We would be mandating issues in legislation and codifying, 
mandating the points that the Ranking Member brought up about 
data sharing as a mandate, and as a mandate, the coordination 
and collaboration of interagency efforts. And victim support, 
training, and support for victims' families and tribal 
communities would be part of something mandated, which is all 
part of discussions and legislation that is going around.
    Your reaction to the process that you are undertaking, with 
no reflection one way or another on my part, and a mandated 
legislation that has a timeline when this has to be 
implemented. Your reaction to that?
    I know it is a general question, but something that I think 
we have to also look at in this discussion is what 
legislatively can we do to prod this forward and to set some 
expectation and a timeline rather than to continue to have 
updates that frustrate some of the Members, and certainly 
myself, in terms of what movement we are making. At least we 
have a benchmark. Your reaction to that?
    Mr. Addington. I think data collection is one of the things 
that we need to do promptly. I think there needs to be a 
timeline on what data is being collected, and it is mandatory 
that we are collecting that data so we know we can use that 
information to identify crime trends and what is going on out 
there. I am in full support of timelines on implementing new 
fields of data so we can share that data and collect it from 
everybody.
    Mr. Grijalva. One of the mandates, of course, would have to 
be resources to support whatever legislative initiative.
    Mr. Addington. Correct.
    Ms. Hovland. And if I can add, sir----
    Mr. Grijalva. Please.
    Ms. Hovland [continuing]. One of the other barriers we have 
been identifying in our visits in the urban Native centers is 
having a uniform code for when data is collected at screening 
so that they can transfer to other data systems and it is a 
standard code, as well as having--a lot of our Native peoples 
are classified incorrectly at screenings because sometimes 
there is not ``American Indian, Alaska Native, or Pacific 
Islander'' on there. So, that is another area that needs to be 
looked at also so that we can get better representation at 
screenings.
    Mr. Grijalva. Thank you. Thank you, Mr. Chairman.
    Mr. Gallego. Thank you, Chairman.
    I now recognize Representative Haaland.
    Ms. Haaland. Thank you, Chairman.
    I have one last question for Mr. Anderson. As you are 
aware, urban areas like Albuquerque, where you are based, have 
high numbers of urban Indians due to the surrounding tribal 
lands, and jobs, of course. Has your agency done any work to 
address the Missing and Murdered Indigenous Women crisis in 
urban locations with high populations of Native Americans, or 
have suggestions about what can be done to help reduce the 
number of missing and trafficked Native women even though it is 
outside Indian Country?
    Mr. Anderson. Thank you, Representative. And the last point 
you make is an important one, given our limited criminal 
jurisdiction in Indian Country. And when we deal with Native 
populations and crimes committed against Native populations 
that live in urban areas, obviously the principal law 
enforcement responsibility falls to the state and local 
authorities.
    In terms of what we can do to facilitate communication, the 
types of things we've been discussing today in the nature of 
information-sharing are going to be our principal priorities 
there, so developing protocols to ensure that information is 
shared between tribal law enforcement and local law 
enforcement, be it in Albuquerque or any other metropolitan 
area we may be talking about.
    I think that type of consistent information-sharing, 
consistent protocols and procedures as between tribal law 
enforcement and local, would go a long way toward addressing 
the type of missing persons issue we've been talking about 
today.
    Ms. Haaland. Thank you.
    Mr. Addington, before I was sworn in to Congress, I 
attended the Senate's oversight hearing on Missing and Murdered 
Indigenous Women. That was back in December. Senator Udall, who 
has been a great lead on this issue in New Mexico, cited ``poor 
coordination, limited data, and insufficient resources'' as 
barriers to solving these cases during that hearing.
    Your testimony also implies better interagency coordination 
and communication is needed. What has the BIA done since the 
December Senate hearing to improve interagency coordination, 
and what more efforts are needed from the FBI to assist your 
agency?
    Mr. Addington. Thank you for that question. We work very 
closely with the FBI's Indian Country unit on these issues. I 
talk to staff in that unit, if not weekly, every other week or 
every couple of weeks on Indian Country issues. So, we do 
coordinate on response as well locally. We are actually working 
with our local FBI partners out in our service agencies to 
where we are coordinating and collaborating on making sure we 
get the proper response to these reports that come in for 
missing persons.
    And just an example: In 1 month, we had 80 missing person 
reports that came in to one of our police departments, or a 
couple of them, in Montana in a month. And the coordination 
since then with the FBI and our other local partners has just 
greatly increased, and we were able to recover and find all of 
these missing persons.
    And it still goes on today. We still have a high number of 
missing person reports that come in, and by our collaborating 
better with our other partners, we are able to respond to those 
more quickly and we are able to recover those folks in a short 
time period.
    So, I think since the last hearing, just us talking with 
our other Federal, state, and local partners, and the great 
work of the U.S. Attorney's Office Native American 
Subcommittee--and we have been attending those meetings with 
them. They have put a lot of different training sessions in 
place, where we can talk and collaborate in those efforts as 
well.
    I think we are getting to where we need to be to make sure 
that we are responding to these cases and getting the adequate 
representation for those victims.
    Ms. Haaland. OK. Thank you. And it is ironic that the FBI, 
when they first became an agency, one of the first big cases 
that they solved were the Osage murders in Oklahoma Indian 
Country. And I think it is interesting that that is the first 
thing they did to really hone their skills as a bureau. And, 
again, we have Indian Country crimes that need to be solved.
    Do you believe the FBI is making adequate effort to assist 
in coordinating, collecting data, and providing resources to 
Indian Country, for these Missing and Murdered Indigenous Women 
cases?
    Mr. Addington. Thanks for that question. I think it depends 
on the area. We have some areas where we have great FBI 
counterpart agents that are there that work with us. And it 
depends on, as it does with the BIA, the workload, where you 
are at, what is going on, on the resources that are available.
    So, I think they do really well in some areas, and it is no 
different than the tribal law enforcement program or our 
programs. Some areas we still struggle just because maybe we 
don't have enough resources that are actually assigned to that 
area, and we work on trying to coordinate our efforts to make 
sure that one of us is responding and able to focus on those 
types of cases.
    Ms. Haaland. Thank you very much. Chairman, I yield, and 
thank you for the time.
    Mr. Gallego. Thank you, Representative Haaland.
    I now recognize Ranking Member Cook.
    Mr. Cook. Thank you very much. It is very, very frustrating 
because this is a huge problem, more so for the members of the 
audience and the tribes than me. But I don't know how to fix 
this. I wish I had some grand solution to it. I think Congress 
has to be more involved.
    I was mulling over in this pea brain of mine about ways on 
how we could get attention, and I almost asked the Committee to 
take a look at what the military has done, the House Armed 
Services Committee. They have what is called a combat readiness 
evaluation, a unit readiness. Basically, it is a report card.
    And when this first came in and I was in the military, I 
hated it. I thought, how can they do this? This is micro-
managing. But it forced you to do certain things in terms of 
whether money was being allocated in certain areas, reporting 
efficiency, things like that, and how you would do this. The 
only reason it was successful, it was a Federal program. It is 
not like you are asking one state to do it, or a city, or what 
have you.
    So, if these statistics do not improve, I suggest that we 
are going to have to have some type of evaluation system to see 
where the shortfalls are, even if it is incumbent upon this 
Committee or the Congress as a whole to do that. Because we 
cannot continue with these tragic situations where the bubble 
does not seem to be moving in terms of improvement. And I echo 
some of the statements.
    But I think there were a lot of things that came out today. 
This has been a hearing which--it is depressing. It is 
depressing for everybody in the audience. But it is a hearing 
that has to be held because you are never going to make 
corrections or you are never going to address the situation.
    And, obviously, maybe the bottom line of this is, hey, this 
is going to stay on the radar. We have to continue to find ways 
to improve this because right now innocent people are dying, 
missing, and our job here, even more so than you, we have to do 
something about it.
    So, thank you very much, Mr. Chairman.
    Mr. Gallego. Thank you, Ranking Member Cook.
    Prior to closing, I do want to say this is our second 
hearing, and I do appreciate the efforts that have occurred 
thus far. But we want to see more beyond listening sessions. We 
want to see actions. If there needs to be follow-up 
legislation, we will be here to be supportive of legislation.
    Obviously, we would rather see things move faster and 
actually have a process and protocols instituted at the 
Department levels. But this is something that this Subcommittee 
is not going to let go. We cannot allow women, thousands of 
women, to be disappearing a year. And it is certainly our trust 
responsibility here in Congress to make sure we do something 
about it. So, there will be follow up to this, and I hope to 
have a successful conversation next time about how we have 
improved the situation.
    I thank our panelists, our expert witnesses, for their 
insightful testimony, and Members for their questions. The 
members of the Committee may have some additional questions for 
the witnesses, and we will ask you to respond to those in 
writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following a 
hearing, and the hearing record will be held open for 10 
business days for these responses.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 11:29 a.m., the Subcommittee was adjourned.]

                                 <all>
</pre></body></html>
